.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~.:.::::::::::~.:::~.::::::
ss..................;........................................................:.:   .....,.,.....,.....i...
“.‘.‘.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~.:.:.~.~~:.:.:.: . . . . . . . . . . . ........~.~.~...~
:.:.:.: .i..~.~.,.~.~...,.~.~.....,.~.~.~...,...~.~.~.......,.,.......,.,.,.........,.,.,.,.,.,.,.,.....,.,
. . . . . . . . . . ..i.................................................... . . . . . . . . ;:;:i:i:i:;:;:>;:>~.
.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.
..‘.:.:.:.:.:.:.,:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:~
                                  . . . .. .. .. .. .. .. .. .. .... ..... . .. .. .. .. .. .. .. .... .. .. .. .. .. .. .. ...                             :::::::::::::z:
. . . . .. ..... . .. .. .. .. .. ...
:.:.:                                                                                                                       . . . .. .. .. .. ... .. .. .
 .:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~:.:.:.:.:.~:.
‘.‘.‘.:.:.:.):.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.
:.:.:. . . . . ..~.~.....~._.~.....~.,.,.~.,.,.,.~.~.~




‘~:~~:i:i:~~:~.~~:~::
::::.:.:.: .. . .... . . . . . ..... . . . . .... . . ...
... . ..i.................ii...........




  .:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.,
  ....         “‘.‘.‘.~.~.:.:.~.:.:.:.:.~.:.~..:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:
  . . . . . ..i....... . . . . . . . . . . . . . . . . . . . . . . . . . ..i....i~.~.~.~...~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~.~......
  . . . . . . . . . . . . . . . . . . . . . . ..C.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
  ~~:~:~.~




    OFFICE OF THE INSPECTOR GENERAL




                                                                                                                     SHORT-TERM PRECISION LANDING CAPABILITIES
                                                                                                                                 FOR C-17 AIRCRAFT



                                                                                           Report No. 98-070                                                                  February 11, 1998




                                                                                                                                                            Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

Suggestions for Future Audits
To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing to the Defense Hotline, The Pentagon, Washington, D. C. 20301- 1900.
The identity of each writer and caller is fully protected.




Acronyms
AMC                  Air Mobility Command
ASC                  Aeronautical Systems Center
ASR/PAR              Airport Surveillance Radar and Precision Approach Radar
CMLSA                Commercial Microwave Landing System Avionics
CMNS                 Combat Mission Need Statement
ESC                  Electronic Systems Center
GPS                  Global Positioning System
ILS                  Instrument Landing System
JPALS                Joint Precision Approach and Landing System
MLS                  Microwave Landing System
MMLS                 Mobile Microwave Landing System
PLSR                 Precision Landing System Receiver
TTLS                 Tactical Transponder Landing System
                                                                            February 11; 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
                 CONTROL, COMMUNICATIONS, AND
                 INTELLIGENCE)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Audit Report on Short-Term Precision Landing Capabilities for C- 17 Aircraft
          (Report No. 98-070)


        We are providing this report for review and comment. Management comments to
a draft of this report were considered in preparing the final report. This report is the first
in a series resulting from our audit of the “Capabilities of DoD Air Traffic Control and
Landing Systems to Support Deployments.”

        The Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) and the Air Force provided comments. Based on management comments, we
readdressed the recommendations to the Air Force and revised Recommendations 1 .b.
and 2. We request the Air Force provide comments on Recommendations 1. and 2. by
April 13, 1998.

        Questions on the audit should be directed to Mr. Robert M. Murrell, Audit
Program Director, at (703) 604-9210 (DSN 664-9210) e-mail: rmurrell@dodig.osd.mil,
or Mr. John M. Gregor, Audit Project Manager, at (703) 604-9353 (DSN 664-9353)
e-mail: jmgregor@dodig.osd.mil. See Appendix H for the report distribution. The audit
team members are listed inside the back cover.




                                           David K. Steensma
                                    Deputy Assistant Inspector General
                                              for Auditing
                            Office of the Inspector General, DOD
Report No. 98-070.                                                   February 11, 1998
   (Project No. 7RD-0008)

        Short-Term Precision Landing Capabilities for C-17 Aircraft

                                   Executive Summary

Introduction. The Joint Precision Approach and Landing System (JPALS) Program was
established to address landing system shortfalls documented in an Army, Navy, and
Air Force joint mission need statement for precision approach landing capability. The
joint mission need statement was approved by the Joint Requirements Oversight Council
on August 29, 1995. The JPALS Program is a potential Acquisition Category ID program
based on its potential application to more than 15,000 DOD aircraft and associated ground
stations. The extent and estimated cost of the program are still being finalized.

In September 1996, the Commander, Air Mobility Command, prepared a draft combat
mission need statement, which asserted an urgent need for an October 30, 1997, initial
operational capability on a minimum core of transport aircraft and suggested use of
microwave landing system technology to meet that need together with an airport
surveillance radar and precision approach radar system. On October 16, 1996, the
JPALS Near-Term, -Integrated Product Team recommended installing avionics, based on
microwave landing system technology, on the aircraft cited in the combat mission need
statement and purchasing the radar system to the JPALS Overarching Integrated Product
Team. On October 28, 1996, the Under Secretary of Defense for Acquisition and
Technology agreed to the JPALS Near-Term, Integrated Product Team recommendations.
The Commander, Air Mobility Command, validated the combat mission need statement on
November 14, 1996, and the Chief of Staff of the Air Force approved it on December 11,
1996. This report addresses the decisions made to install a developmental Precision
Landing System Receiver (PLSR) avionics unit on C-17 aircraft. The estimated cost to
meet the combat mission need statement ranged from $54.6 million to $118.1 million.
The estimated cost to install the developmental avionics unit on C-17 aircraft ranged from
$41.6 million to $105.1 million.

Audit Objectives. The overall audit objective was to evaluate the capabilities of DOD air
traffic control and landing systems to support deployments. Specifically, we evaluated the
rationale for the Air Force selection of a developmental PLSR in concert with the Mobile
Microwave Landing System and an airport surveillance radar and precision approach radar
system to meet the combat mission need statement requirement. We also reviewed
applicable management controls. We will discuss Air Force plans to purchase an airport
surveillance radar and precision approach radar system in a later report.

Audit Results. The short time frame allotted (from October 1996 to October 1997) for
the development, ac.quisition, and testing of the PLSR avionics unit on C-17 aircraft for
use with the existing Mobile Microwave Landing System ground station resulted in the
Air Force not following DOD acquisition procedures. Decisions were made to use the
PLSR without adequately documenting that:

       o the Air Force spent $97.7 million for a Commercial Microwave Landing System
Avionics unit installed on C-130 aircraft for use with the Mobile Microwave Landing
System, but after 10 years, those systems have not worked in an operational deployment;
       o the life-cycle costs were not developed for the procurement of the PLSR;
       o the costs of potential alternatives were not developed and compared;
       o the JPALS Near-Term Integrated Product Team never finalized the results of its
analyses;
         o the test plans for all PLSR capabilities were not fully developed and its
installation was planned to occur on all C-17 aircraft before completion of all testing; and
        o the PLSR is a command unique, service unique system even though the
objective of the JPALS Program is to develop one system for all Services.
As a result, the Air Force may commit to expend more than $105.1 million on a high-risk
acquisition strategy to procure and install PLSR avionics units on up to 120 C-17 aircraft.
Further, the October 30, 1997, initial operational capability date was not met and testing
of the avionics unit was stopped because of problems between the avionics unit and the
C-17 aircraft. See Appendix A for details on the management control program.
Summary of Recommendations. We recommend reevaluation of the Air Force decision
to install the PLSR on C-17 aircraft; to include limiting the acquisition and installation of
the PLSR to one test aircraft, testing all PLSR capabilities, evaluating the costs and
benefits of continuing the use of microwave landing system technology, and evaluating the
costs and benefits of the PLSR and other competing alternatives under the ongoing
DOD-wide JPALS Program. We also recommend instruction of program officials that
when an expedited acquisition process is used, DOD acquisition policies and Federal
Acquisition Regulation procedures must still be followed.
Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) neither concurred nor nonconcurred with the
recommendations and requested we coordinate with the Air Force before issuing this
report. The Air Force disagreed with recommendations to limit the acquisition and
installation of the PLSR to one C-17 test aircraft and to prove the operational capability of
and need for the PLSR by testing all PLSR capabilities. The Air Force agreed with
recommendations to evaluate the costs and benefits of continuing microwave landing
system technology, of the PLSR, and of other competiting alternatives. The Air Force
disagreed that program and contract officials needed reminders to comply with acquisition
policies and procedures prescribed by regulations. See Part I for a summary of
management comments and Part III for the complete texts of the management comments.
Audit Response. Based on management comments, we revised two recommendations and
redirected recommendations to the Air Force. Air Force comments were responsive to the
intent of the recommendations on testing and installing the PLSR on one aircraft and no
additional comments are necessary. Air Force comments were partially responsive to
recommendations to evaluate the costs and benefits of using microwave landing system
technology, the PLSR, and other alternatives for precision landing. We request that the
Air Force provide target dates for completion and documentation supporting those
evaluations. Air Force comments did not adequately address recommendations to fully
prove PLSR operational capability through testing and to provide guidance to program
officials when using an expedited acquisition process. We revised those recommendations
and request the Air Force provide additional comments by April 13, 1998.

                                              ii
Table of Contents        l




Executive Summary                                                           i

Part I - Audit Results
      Audit Background                                                      2
      Audit Objectives                                                      4
      Air Mobility Command Precision Approach Landing Capability            5

Part II - Additional Information
      Appendix A. Audit Process
       Scope                                                               22
       Methodology                                                         22
       Contacts During the Audit                                           23
       Management Control Program                                          23
      Appendix B. Summary of Prior Coverage                                24
      Appendix C. Glossary of Terms
      Appendix D. Precision Landing System Receiver Program History        ;:
      Appendix E. Sole-Source, Undefinitized Contractual Actions           32
      Appendix F. Estimated Costs for Air Mobility Command Precision
                   Landing Needs                                           35
      Appendix G. Air Force Comments on the Draft Audit Report and Audit
                   Response                                                37
      Appendix H. Report Distribution                                      47

Part III - Management Comments
      Assistant Secretary of Defense (Command, Control, Communications,
         and Intelligence) Comments                                        50
      Air Force Comments                                                   51
Part I - Audit Results
Audit Background
    This report is the first in a series resulting from our audit of the “Capabilities of
    DOD Air Traffic Control and Landing Systems to Support Deployments.” A
    glossary in Appendix C defines terms used in this report.

    Joint Precision Approach Landing System. Existing precision approach
    landing systems have been in use for more than 40 years and suffer shortfalls
    that limit the ability of the unified commands to perform joint operations. The
    Joint Precision Approach and Landing System (JPALS) Program was
    established to satisfy the current operational needs of the Army, Navy, and
    Air Force joint mission need statement for precision approach landing
    capability. The Joint Requirements Oversight Council approved the joint
    mission need statement on August 29, 1995, and JPALS is a potential
    Acquisition Category ID program based on the potential for program application
    to more than 15,000 DOD aircraft, ships, and ground stations. The extent and
    estimated cost of the JPALS Program are still being finalized.
    On May 28, 1996, the Principal Deputy Under Secretary of Defense for
    Acquisition and Technology signed an Acquisition Decision Memorandum for
    JPALS. The Acquisition Decision Memorandum designated the Air Force as
    lead Military Department and established Milestone 0 (Concept Exploration)
    criteria in support of a Defense Acquisition Board Milestone I (Program
    Definition and Risk Reduction) decision planned for September 30, 1997. To
    provide oversight, the Deputy Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence Acquisition) was appointed
    chairman for the JPALS Overarching Integrated Product Team.

    Near-Term, Integrated Product Team. The Acquisition Decision
    Memorandum also established a JPALS Near-Term, Integrated Product Team to
    study areas of immediate need and to provide an assessment of a limited set of
    alternatives to meet directed user requirements for precision landing needs.
    Headquarters, Air Mobility Command (AMC), chaired the JPALS Near-Term,
    Integrated Product Team with representation from each Military Department. ’

    The JPALS Near-Term, Integrated Product Team was tasked to make
    recommendations to the Overarching Integrated Product Team on the following
    areas of immediate need:




    ‘Co-integrated Product Team Leaders included representation from the Army
    Office of the Deputy Chief of Staff for Operations and Plans, Force
    Development Directorate, Aviation Division; the Navy Office of the Deputy
    Chief of Naval Operations for Resources, Warfare Requirements, and
    Assessment, Air Warfare Division; and the Air Force Flight Standards Agency.



                                          2
       o austere precision landing capability for C-l 7 aircraft;

        o interoperability of Army and Navy aircraft with Air Force bases lacking
precision approach radar; and
       o shortfalls and obstacles to the full employment of the recently fielded
Mobile Microwave Landing System (MMLS) supporting C-130 aircraft.

Air Mobility Command Combat Mission Need Statement. In early
September 1996, AMC issued a draft Precision Approach Capability Combat
Mission Need Statement (CMNS), which stated that a minimum core of
transport aircraft (12 C-5 aircraft, 35 C-17 aircraft, and 12 C-141 aircraft) with
the capability to use a rapidly deployable MMLS and a deployable airport
surveillance radar and precision approach radar (ASR/PAR) system were
required for a rapidly deployable precision approach capability. The CMNS
also stated that an urgent need existed to obtain a precision approach initial
operational capability by October 30, 1997, for the core transport aircraft.
Decision Briefing of the JPALS Overarching Integrated Product Team.
The Commander, AMC, requested that the JPALS Near-Term, Integrated
Product Team hasten its assessment of solutions for an austere precision landing
capability for C-17 aircraft. As part of the Near-Term, Integrated Product
Team, the Air Force Program Executive Officer for Airlift and Trainers
convened a working group* on September 12, 1996, to analyze potential
solutions to the AMC CMNS. On October 16, 1996, the Near-Term, Integrated
Product Team made recommendations to the JPALS Overarching Integrated
Product Team to:

        o modify 3 5 C- 17 aircraft and 12 C-5 aircraft with a developmental
Precision Landing System Receiver (PLSR) avionics unit,

       o modify 12 C-141 aircraft with a Commercial Microwave Landing
System Avionics (CMLSA) receiver being installed on C- 130 aircraft, and

       o purchase 2 ASR/PAR systems being developed commercially.

In making those recommendations, the JPALS Near-Term, Integrated Product
Team envisioned use of the PLSR and CMLSA together with the MMLS. On
November -14, 1996, the Commander, AMC, validated the CMNS and deleted


*The Air Mobility Contingency Precision Approach Capability Working Group
was led by AMC and the Electronic Systems Center and included
representatives from C-17, C-5, and C-141 system program offices; the
Air Force Flight Standards Agency; the Global Positioning System Joint
Program Office; the Joint Special Operations Command; the Air Force
Scientific Advisory Board; and the Air Force Office of the Deputy Chief of
Staff for Operations and Plans.
     the requirement for the 12 C-5 aircraft and the 12 C-141 aircraft. The CMNS
     was approved by the Chief of Staff of the Air Force on December 11, 1996.

    Microwave Landing System. In January 1983, the Air Force was designated
    the lead Military Department for DOD microwave landing system (MLS)
    development. The Air Force was tasked to submit an implementation plan,
    after coordinating with the other Military Departments, to the Office of the
    Secretary of Defense for MLS development. The international and domestic
    civilian plans to transition from the instrument landing system (ILS) to MLS as
    the international precision landing standard had a significant effect on the
    Air Force precision landing requirements and the Air Force selection of a
    precision landing system to support deployment needs. The Air Force
    developed and purchased 37 MMLS ground stations under a 1989 Electronic
    Systems Center contract at a cost of $50 million to support Air Force C-130s
    (equipped with CMLSA) deploying to areas where precision approach and
    landing capabilities do not exist. The CMLSA was developed and produced
    under a 1987 Electronic Systems Center contract and is being installed under
    separate contracts for 550 planned C-l 30 aircraft. However, in June 1994, the
    Federal Aviation Administration decided to halt development of
    MLS technology and to pursue Global Positioning System (GPS) technology.
    As of April 1997, the Air Force has spent more than $47.7 million on the
    development, purchase, and installation of the CMLSA.

    PLSR Capabilities and Planned Use. The PLSR avionics unit is a multi-mode
    receiver that has been under development by the Electronic Systems Center
    since 1987. The PLSR is being designed to provide precision landing capability
    through ILS and MLS technologies and to include an upgrade capability to
    GPS technology. At airfields without precision landing capability, the
    Air Force plans to deploy the MMLS so that PLSR equipped C-17 aircraft can
    make precision approach landings using the MLS capability of the PLSR. See
    Appendix D for background on PLSR development.


Audit Objectives
    The overall audit objective was to evaluate the capabilities of DOD air traffic
    control and landing systems to support deployments. Specifically, we evaluated
    the rationale for the Air Force selection of a developmental PLSR unit (for use
    with the MMLS) and an ASR/PAR system to meet AMC needs. We also
    reviewed the effectiveness of the management control program as it applied to
    planning and acquiring products to meet user needs. See Appendix A for a
    discussion of the audit scope and methodology and the review of management
    controls. See Appendix B for a summary of a prior audit coverage. See
    Appendix E for a discussion of the Air Force contracting for the development,
    production, and installation of the PLSR on C-17 aircraft.




                                       4
Air Mobility Command Precision
Approach Landing Capability
The short time frame allotted (from October 1996 to October 1997) for
the development, acquisition, and testing of the PLSR avionics unit on
C-17 aircraft for use with the existing Mobile Microwave Landing
System ground station resulted in the Air Force not following
DOD acquisition procedures. Decisions were made to use the PLSR
without adequately documenting that:
       o the Air Force spent $97.7 million for a Commercial
Microwave Landing System Avionics unit installed on C-130 aircraft for
use with the Mobile Microwave Landing System, but after 10 years,
those systems have not worked in an operational deployment;
       o the life-cycle costs were not developed for the procurement of
the PLSR;

      o the costs of potential alternatives were not developed and
compared;

           the JPALS Near-Term Integrated Product Team never
finalize: the results of its analyses;

       0 the test plans for all PLSR capabilities were not fully
developed and its installation was planned to occur on all C-17 aircraft
before completion of all testing; and

        o the PLSR is a command unique, service unique system even
though the objective of the JPALS Program is to develop one system for
all Services.

As a result, the Air Force may install a precision landing system
capability that has not been operationally proven, has initiated
procurement actions without knowing the full economic cost for the
program, and may commit to spending more than $105.1 million on the
high-risk acquisition strategy to procure and install PLSR avionics units
on up to 120 C- 17 aircraft before adequately testing and proving the full
operational capability of the PLSR. Further, the October 30, 1997,
initial operational capability date was not met and testing of the
PLSR avionics unit was stopped because of problems between the
avionics unit and the C- 17 aircraft.
Air Mobility Command Precision Approach Landing Capability



Acquisition Planning Requirements
      Acquisition Planning. Acquisition planning is a process to ensure that an
      acquisition is coordinated and integrated through a comprehensive plan for
      fulfilling agency needs in a timely manner and at reasonable cost. Acquisition
      planning should begin as soon as a need is identified. Basic policy on
      developing acquisition strategies and managing acquisitions is in
      DOD Directive 5000.1, “Defense Acquisition,” March 15, 1996;
      DOD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
      Acquisition Programs (MDAPs) and Major Automated Information System
      (MAIS) Acquisition Programs, ” March 15, 1996; and in Federal Acquisition
      Regulation part 7, “Acquisition Planning. ”

      Acquisition Planning Policy. DOD Directive 5000.1 states that the primary
      goal of the Defense acquisition system is to acquire, in a timely manner and at a
      fair and reasonable price, quality products that satisfy the needs of the
      operational user with measurable improvements to mission accomplishment.
      Federal Acquisition Regulation 7.102, “Policy, ” states that agencies should
      perform acquisition planning for all acquisitions to promote full and open
      competition and to ensure that needs are met in the most effective, economical,
      and timely manner.



Air Force Acquisition Planning
      Air Force program managers and contracting officials did not follow core
      acquisition management issues encompassed in DOD Directive 5000.1 and
      Federal Acquisition Regulation part 7 in developing acquisition plans to meet
      AMC precision landing capability needs. The acquisition plans for the
      PLSR avionics unit, based on the AMC CMNS, did not adequately document or
      identify:
             o the capability of MLS technology to support deployments;

             o the reasons for needing an initial operational capability as of October
      30, 1997;
              o the operational test and evaluation plans needed to verify the
      operational capability of the PLSR avionics unit;

             o the full program costs; or

              o the alternative solutions considered and the reasons that the Air Force
      selected the PLSR avionics unit to meet the AMC precision landing capability
      needs.




                                            6
                 Air Mobility Command Precision Approach Landing Capability



Operational Capability of MLS Technology
    The Air Force plans to install PLSR avionics units on up to 120 C-17 aircraft,
    even though existing MLS landing system capabilities to be used by the PLSR
    have not been proven operationally capable of supporting precision landing
    needs during deployments. The Air Force was unable to use the MMLS ground
    stations and the CMLSA receivers during the deployment to Bosnia for
    precision landing needs.

    Operational Status of MLS Technology. In response to the Federal Aviation
    Administration decision to pursue GPS technology for precision landing needs,
    the Army and the Navy deleted funding from MLS budgets, and neither plans to
    use MLS technology. The Air Force also deleted funding for its MLS program
    requirements based on recommendations made in Inspector General, DOD,
    Report No. 94-190, “Air Force Microwave Landing System,” September 20,
    1994 (see Appendix B). However, since 1983, the Air Force has continued
    with its efforts to field a deployable precision landing system capability based
    on the use of MLS technology. The Air Force efforts to field the MLS
    technology have resulted in the development and procurement of 37 MMLS
    ground stations, beginning in 1989, at a cost of $50 million, and the
    development, procurement, and installation of CMLSA receivers, beginning in
    1987, on 550 planned C-130 aircraft at a cost of more than $47.7 million.
    However, after 10 years, the Air Force has not yet successfully demonstrated
    the operational feasibility of existing MLS capabilities to provide precision
    landing capability during an operational deployment.
    Attempts to Field MMLS and CMLSA. In early 1996, during Operation Joint
    Endeavor, attempts to use the existing MLS capability were hindered by
    technical problems with both the MMLS and CMLSA and by procedural
    problems with flight and navigation manuals. Those problems resulted in
    procedural corrections for the use of MMLS ground stations and restrictions on
    the use of the CMLSA receiver because of installation problems on the
    C-130 aircraft. Also, production reliability and acceptance testing of the
    MMLS conducted from April through December 1996 identified technical
    deficiencies that resulted in modification retrofits for the MMLS. The
    Air Force has initiated action to fix the known problems, to include completing
    retrofits on the MMLS, verifying the proper installation of the CMLSA on
    C-130 aircraft, correcting software deficiencies with the CMLSA receiver,
    correcting flight manual errors on use of the CMLSA, and developing flight
    training programs for pilots on use of the CMLSA. The Air Force projected
    that all deficiencies would have been corrected by December 1997. However,
    additional follow-on test and evaluation is needed to assess the operational
    effectiveness and suitability of the MMLS and the C-130 aircraft equipped with
    the CMLSA and to prove the adequacy of corrective actions taken.

            Status of Follow-on Test and Evaluation. Follow-on test and
    evaluation of the MMLS and the C-130 aircraft equipped with the CMLSA, to
    include electromagnetic compatibility and interference testing, was scheduled to
    begin in August 1996 and to be completed by June 1997. However, as of


                                        7
Air Mobility Command Precision Approach Landing Capability


      December 1997, the Air Force had not developed a test plan. The Air Force
      Combat Air Delivery School does not recommend starting the testing until the
      operational problems with the MMLS and the CMLSA are corrected.
              Deployment Planning for the MMLS. The AMC and the Air Force
      Special Operations Command have not developed an adequate concept of
      operations for deploying the MMLS. The AMC has drafted a concept of
      operations plan; however, that plan was still pending as of January 9, 1998.
      The Air Force Special Operations Command 22nd Special Tactics Squadron,
      McCord Air Force Base, was designated the Air Force Special Operations
      Command pilot unit for MMLS initial operating capability and for concept of
      operations validation by November 1, 1997. However, that plan was not final
      as of December 10, 1997. According to the Combat Air Delivery School, the
      current concept of operations, which the Air Combat Command prepared, lacks
      sufficient detail on MMLS employment in threat environments, wartime usage
      rates, enroute navigation, airfield survey procedures, flight check requirements,
      and the use of offset approach capability.

      The lack of an adequate concept of operations plan for the MMLS contributed
      to the Air Force inability to effectively deploy the MMLS in the past and could
      adversely impact future efforts to use the MMLS in support of deployments.

      Operational Status of GPS Technology. The Federal Aviation Administration
      is still developing GPS technology, and decisions on the use of GPS technology
      for precision landing capability are not expected until 1999 or later.


Initial Operational Capability Date
      The AMC and the Air Force Program Executive Officer for Airlift and Trainers
      could not provide a documented rationale, as required by DOD
      Directive 5000.1, regarding the need for an initial operational capability date of
      October 30, 1997: Federal Acquisition Regulation 7.104, “General
      Procedures, ” subparagraph (b) states that requirements and logistics personnel
      should avoid issuing requirements on an urgent basis or with unrealistic delivery
      or performance schedules because that approach generally restricts competition
      and increases prices. The October 30, 1997, date was based on the expected
      time needed to develop, install, and test a portion of the proposed MLS
      capability of the PLSR on C-17 aircraft and was not based on a documented or
      ongoing operational need. The AMC had no documented analysis of airlift
      requirements, to include the types, sizes, and quantities of material and
      personnel, to support a specific operational deployment scenario or the types of
      aircraft needed. Also, the AMC did not have an analysis of how often precision
      landings are needed because of poor weather or an analysis of the effects on
      operations from the inability to make a precision landing.

      The initial operational capability date of October 30, 1997, was not based on
      ongoing operational needs. Because of the unrealistic initial operational



                                          8
                 Air Mobility Command Precision Approach Landing Capability


    capability date, the Air Force did not design an adequate test plan, does not plan
    to fully test PLSR capabilities before installation on the C-17 aircraft, and did
    not thoroughly evaluate alternatives to meet precision landing needs before
    planning the acquisition of the PLSR.


Development, Production, and Testing of PLSR
    The Air Force modified existing contracts even though developmental and initial
    operational flight testing of the PLSR avionics units on C-17 aircraft had not
    been accomplished, as required by DOD Regulation 5000.2-R, to:

            o develop and produce 117 PLSR avionics units (9 units for testing,
    94 units for production installation, and 14 units for spares);

            o install PLSR avionics units on 40 C- 17 aircraft (1 test aircraft and
    39 retrofits); and

            o incorporate the PLSR avionics units into the C- 17 aircraft production
    line.

    As of November 21, 1997, the Electronic Systems Center and the Aeronautical
    Systems Center had issued six undefinitized contractual actions, valued at
    $42.9 million. The contractual actions are further discussed in Appendix E.
    The Air Force Program Executive Officer for Airlift and Trainers stated that the
    Air Force acquisition strategy was necessary to meet the initial operational
    capability date of October 30, 1997, and that PLSR avionics units may be
    installed on all the planned 120 C- 17 aircraft. However, current plans for
    installation of PLSR avionics units on the initial 35 C-17 aircraft are unknown
    because of testing delays. DOD Regulation 5000.2-R states that initial test and
    evaluation planning must provide for completion of initial operational test and
    evaluation before entering full-rate production.

    Developmental and Initial Operational Flight Testing. The Air Force plans
    only limited testing of the proposed capabilities of the PLSR, to include the
    MLS capability to be used in deployments, before final decisions are made to
    install the PLSR on C-17 aircraft. The Air Force Operational Test and
    Evaluation Center issued “Air Mobility Contingency Precision Approach
    Capability (AMCPAC) Initial Operational Test and Evaluation Phase I & II
    Plan” on July 3 1, 1997. According to the test plan:

           o Phase I will support the initial fielding decision for the C-17 and will
    provide ILS (category 1 and 2), MLS colocated computed category 1 (MLS C),
    and Very High Frequency Omni Bearing Range with the C-17 in autopilot
    coupled and flight detector modes.
          o Phase II will add MLS split site modes, automatic (MLS A) and
    manual (MLS M) and C-17 raw deviations modes.

            o Phase III will add differential GPS capability, if it is funded.

                                          9
Air Mobility Command Precision Approach Landing Capability


      The Air Force Operational Test and Evaluation Center test manager stated that
      the planned phase I testing of the PLSR will be done under the existing weather
      conditions on the day of testing and may not replicate the adverse conditions
      that could be expected during operational deployments. The test manager also
      stated that he would prefer to conduct all operational testing of existing
      PLSR capabilities, as provided for under phase I and phase II of the current
      initial operational test plan, so that the PLSR could be released without any
      flight restrictions on the use of the MLS-based capability of the PLSR. Instead,
      current Air Force plans call for a fielding decision based on an interim summary
      report on the results of the planned phase I testing.

      Test Status. Combined developmental and phase I initial operational flight
      testing was scheduled for August 18 through September 29, 1997. PLSR
      installation on the C-17 aircraft was scheduled to begin October 7, 1997. The
      developmental testing began on August 18, 1997, but because of problems
      experienced during developmental testing, the PLSR was not certified ready for
      operational testing until November 10, 1997. The operational testing began on
      November 12, 1997, but was suspended as of November 20, 1997. Both the
      developmental and initial operational testing identified numerous problems with
      the PLSR and its integration into the C-17. Officials from the C-17 System
      Program Office were not sure when the current problems would be fixed or
      when operational testing would resume. The C-17 Systems Program Office
      officials stated that the PLSR would not be installed until after the current phase
      of operational testing was complete. The Director, Operational Test and
      Evaluation, is not involved in the planned testing.
      Test Plan. The AMC requirements correlation matrix and the AMC CMNS do
      not describe the specific operational scenario (combat need) in which the
      PLSR equipped C-17 is expected to operate. Also, current plans do not ensure
      that the PLSR will be realistically tested under the types of adverse conditions
      that may be experienced during deployments. DOD Regulation 5000.2-R states
      that the primary purpose of operational test and evaluation is to determine
      whether systems are operationally effective and suitable for the intended use by
      representative users before production and deployment.

      Appropriate testing is required to ensure system performance, operational
      effectiveness, and operational suitability for the desired military application.
      The Air Force problems with deploying the existing MMLS ground stations and
      CMLSA-equipped C-130 aircraft raises questions as to the viability of existing
      MLS capabilities in support of deployments and emphasizes the need for
      appropriate testing before additional costs are incurred on the PLSR. We
      believe realistic testing of the PLSR cannot be successfully accomplished until
      the operational problems of existing MLS capabilities are corrected and those
      corrections are verified by operational testing the MLS capabilities.

      Under Aeronautical Systems Center contract F33657-95-D-2026, the Air Force
      is implementing its plan to develop, integrate, and flight test the PLSR avionics
      unit on one C-17 aircraft. The Air Force should fully prove the proposed
      capabilities of the PLSR through appropriate testing on that C-17 aircraft.



                                           10
                 Air Mobility Command Precision Approach Landing Capability


    Testing should be based on specific operational scenarios and the results of
    testing of the PLSR should be used to assess other potential alternatives for a
    precision landing system. Further, final decisions to produce and install
    PLSR avionics units on additional C-17 aircraft or any other aircraft should be
    made only after testing is successfully completed.


Estimated Integration Costs and Program Affordability
    The Air Force did not document all program costs for precision landing
    capabilities before deciding to install PLSR avionics units on C-17 aircraft.
    The costs of continuing to attempt to field, operate, and maintain an
    MLS-technology-based system and the costs to develop, operate, and maintain a
    GPS-technology-based system were not fully documented and assessed.
    DOD Directive 5000.1 and DOD Regulation 5000.2-R state that the full costs of
    implementing proposed systems should be fully and clearly documented and
    identified to decision makers along with pertinent performance information so
    that informed decisions can be made on whether proposed systems offer
    sufficient military or economic benefit over existing systems. Also, the
    Defense Systems Affordability Council, chaired by the Under Secretary of
    Defense for Acquisition and Technology, emphasized the importance of
    identifying life-cycle support costs and ensuring the affordability of systems.

    Estimated Funding Requirements to Install PLSR. In a January 6, 1997,
    reprogramming request to Congress, the Air Force stated that $54.6 million was
    needed for a new-start modification in support of the AMC CMNS. At that
    time, the Air Force estimated that $40.7 million was needed for the
    development, procurement, and installation of PLSR avionics units on
    40 C- 17 aircraft, $13 .O million was needed to procure 4 ASR/PAR systems,
    and $0.9 million was needed for flight-check equipment. However, in an
    April 15, 1997, response to the Inspector General, DOD, questions on
    integration of the PLSR into C-17 aircraft, the Air Force Program Executive
    Officer for Airlift and Trainers stated that the PLSR may be incorporated
    throughout the planned 120 C-17 aircraft fleet to maintain a single
    configuration. Based on available cost information obtained from the
    C-17 System Program Office, the potential costs to develop the differential
    GPS capability of the PLSR and to install PLSR avionics units on the
    120 C-17 aircraft fleet would be $105.1 million. Additional details on funding
    requirements to support the AMC CMNS and install PLSR avionics units on
    C-17 aircraft are in Appendix F.


Risk Management
    While the Air Force views the program to install PLSR avionics units on
    C-17 aircraft a low to moderate risk, the history of the deployable
    MLS program and the developmental status of the PLSR indicate otherwise.
    The Air Force Program Executive Officer for Airlift and Trainers stated that the
    availability of funds was a moderate risk to meeting the initial operational

                                        11
                 Air Mobility Command Precision Approach Landing Capability


    Testing should be based on specific operational scenarios and the results of
    testing of the PLSR should be used to assess other potential alternatives for a
    precision landing system. Further, final decisions to produce and install
    PLSR avionics units on additional C-17 aircraft or any other aircraft should be
    made only after testing is successfully completed.


Estimated Integration Costs and Program Affordability
     The Air Force did not document all program costs for precision landing
     capabilities before deciding to install PLSR avionics units on C-17 aircraft.
     The costs of continuing to attempt to field, operate, and maintain an
     MLS-technology-based system and the costs to develop, operate, and maintain a
     GPS-technology-based system were not fully documented and assessed.
     DOD Directive 5000.1 and DOD Regulation 5000.2-R state that the full costs of
     implementing proposed systems should be fully and clearly documented and
     identified to decision makers along with pertinent performance information so
     that informed decisions can be made on whether proposed systems offer
     sufficient military or economic benefit over existing systems. Also, the
     Defense Systems Affordability Council, chaired by the Under Secretary of
     Defense for Acquisition and Technology, emphasized the importance of
     identifying life-cycle support costs and ensuring the affordability of systems.

    Estimated Funding Requirements to Install PLSR. In a January 6, 1997,
    reprogramming request to Congress, the Air Force stated that $54.6 million was
    needed for a new-start modification in support of the AMC CMNS. At that
    time, the Air Force estimated that $40.7 million was needed for the
    development, procurement, and installation of PLSR avionics units on
    40 C- 17 aircraft, $13 .O million was needed to procure 4 ASR/PAR systems,
    and $0.9 million was needed for flight-check equipment. However, in an
    April 15, 1997, response to the Inspector General, DOD, questions on
    integration of the PLSR into C-17 aircraft, the Air Force Program Executive
    Officer for Airlift and Trainers stated that the PLSR may be incorporated
    throughout the planned 120 C-17 aircraft fleet to maintain a single
    configuration. Based on available cost information obtained from the
    C-17 System Program Office, the potential costs to develop the differential
    GPS capability of the PLSR and to install PLSR avionics units on the
    120 C-17 aircraft fleet would be $105.1 million. Additional details on funding
    requirements to support the AMC CMNS and install PLSR avionics units on
    C- 17 aircraft are in Appendix F.


Risk Management
    While the Air Force views the program to install PLSR avionics units on
    C-17 aircraft a low to moderate risk, the history of the deployable
    MLS program and the developmental status of the PLSR indicate otherwise.
    The Air Force Program Executive Officer for Airlift and Trainers stated that the
    availability of funds was a moderate risk to meeting the initial operational

                                        11
Air Mobility Command Precision Approach Landing Capability


      capability date of October 30, 1997, and that the development of the PLSR was
      a moderate risk that the Air Force would closely monitor to ensure that the
      schedule is maintained. The Air Force did not consider the status and
      operability of the MMLS a risk.

      Assessment of MLS Technology Risk. During its assessment of alternatives,
      the JPALS Near-Term, Integrated Product Team stated that the MMLS was
      fielded and available for use, that it had been through developmental and initial
      operational test and evaluation, and that it could be deployed and set up by three
      people in 1 hour. However, the Air Force was unable to demonstrate the use of
      existing MLS capabilities for precision landing needs during the deployment to
      Bosnia, and the current status as to when the MMLS will be operationally
      deployable was not known.

      Acquisition Program Risk. DOD Regulation 5000.2-R states that a risk
      management program should be established for each acquisition program to
      identify and control performance, cost, and schedule risks. We believe that the
      Air Force Program Executive Officer for Airlift and Trainers did not accurately
      identify all risk factors affecting the development, installation, and use of the
      PLSR on C-17 aircraft and that DOD level decision makers may not have been
      provided complete information relative to the AMC CMNS and the selected
      Air Force solution.


Considering Alternative Solutions
      The Air Force may not have identified less costly means of providing immediate
      precision landing capability for C-17 aircraft because it did not fully consider
      existing alternatives and promising, future alternatives. The AMC and the
      JPALS Near-Term, Integrated Product Team did not fully consider alternative
      solutions to meet the precision landing needs of C-17 aircraft or the costs of
      those alternatives. Also, the documented results of the JPALS Near-Term
      Integrated Product Team were not finalized and approved. DOD
      Directive 5000.1 and DOD Regulation 5000.2-R require DOD Components to
      document mission deficiencies in a mission need statement and to describe why
      nonmaterial alternatives are not adequate to meet a requirement. Nonmaterial
      alternatives include changes in doctrine, concepts of operations, tactics,
      strategy, organization, training, or revisions to current war plans. The DOD
      guidance also states that cost must be considered as an independent variable and
      requires acquisition managers to establish realistic cost objectives for all
      acquisition programs.

      Nonmaterial Alternatives. The Air Force, the Army, and the Marine Corps
      have had existing equipment that can provide precision landing capability in
      adverse weather conditions. Therefore, AMC had no documented support for
      its assertions that existing nonmaterial alternatives could not meet the immediate
      need for precision landing capability on C- 17 aircraft. Also, AMC planners
      were not fully aware of when or how precision landing capability support would



                                          12
             Air Mobility Command Precision Approach Landing Capability


be provided during major regional conflicts and contingency operations.
Existing war plans for major regional conflicts did not clearly identify
requirements for precision landing capability.

Air Force Landing Control Central. The Air Force did not adequately
consider use of the Air Force Landing Control Central (AN/TPN-19) to meet
the AMC CMNS. The AMC CMNS stated that the AN/TPN-19 required
7 C-130 aircraft and 33 personnel for transport and initial setup. However, on
September 24, 1996, the Air Force Program Executive Officer for Airlift and
Trainers briefed the Commander, AMC, that the existing Air Force
AN/TPN-19 (the precision approach radar portion only) could be deployed on
2 C-130 aircraft and be set up by 10 personnel and noted that the alternative
would require a change in the current concept of operations. On October 21,
1996, the Commander, AMC, briefed the Assistant Secretary of the Air Force
(Acquisition) on the AMC CMNS requirement and recommended pursuing the
AN/TPN-19 (precision approach radar only) alternative, installing the PLSR on
C-17 aircraft, and pursuing acquisition of an ASR/PAR. In a November 20,
1996, memorandum to the Chief, Mobility Training and Special Operations
Requirements Division, Directorate of Operational Requirements, the Air Force
Flight Standards Agency stated that the AMC CMNS misstated AN/TPN-19
airlift and personnel requirements. The Air Force Flight Standards Agency
stated that the AN/TPN-19 (precision approach radar only) could be deployed
and set up using 2 C-130 aircraft and 10 personnel, rather than 7 C-130 aircraft
and 33 personnel.

Although the capabilities of the existing AN/TPN-19 (precision approach radar
only) were known, AMC did not adequately document why that alternative
alone could not meet immediate precision landing capability needs of the
C-17 aircraft. The Air Combat Command recently revised the concept of
operations plans to field the AN/TPN-19 (precision approach radar only) with a
tactical air navigation system if required to support deployments. However, the
AMC CMNS was never updated to reflect the AN/TPN-19 (PAR only)
deployment capabilities.

Army and Marine Corps Alternatives. The AMC did not consider existing
Army or Marine Corps precision approach radar systems for meeting immediate
precision landing needs. The Army AN/TPN- 18 Landing Control Central can
be deployed using 1 C- 130 aircraft and 7 personnel to set up. The Marine
Corps AN/TPN-22 All Weather Landing Subsystem can be deployed using
2 C-130 aircraft and 7 personnel to set up. Both systems can provide precision
approach landing capability in adverse weather.

We believe that existing precision landing systems in the Army, the Air Force,
and the Marine Corps are capable of meeting the immediate precision landing
capability needs of AMC and the C-17 aircraft. Further, the AMC CMNS
requirement could be met through more effective coordination among the
Military Departments and through better planning of operational requirements.




                                   13
Air Mobility Command Precision Approach Landing Capability


      Assessing Future Alternatives. The JPALS Near-Term, Integrated Product
      Team assessed seven potential alternatives to meet the AMC CMNS:

             o Landing Control Central (AN/TPN- 19) ;

             o PLSR with the MMLS;

             o CMLSA with the MMLS:

             o Tactical Transponder Landing System (TTLS);

             o Local Area Differential Global Positioning System avionics and
      ground system;
            o Wide Area Global Positioning System Enhancement with
      GPS receiver capability; and

             o Optical Microwave Approach and Ranging (OMAR’“) ground and
      avionics system.

      Each alternative is fully described in Appendix C.

      The JPALS Near-Term, Integrated Product Team did not consider life-cycle
      costs or apply cost-performance, trade-off analysis against the considered
      alternatives. Air Force officials stated that cost was secondary to the AMC
      CMNS need for an October 30, 1997, initial operational capability and,
      therefore, did not consider a cost analysis of the seven potential alternatives to
      meet the AMC CMNS. In October 1996, the JPALS Cost Performance
      Integrated Product Team emphasized the requirement for cost and trade-off
      analysis, but closed out the action in November 1996 with the explanation that
      “Only PLSR will be costed.” The effective application of cost and trade-off
      analysis could have shown the benefits of using existing Military Department
      radar systems or developmental systems to meet the immediate need for
      precision landing capability for C- 17 aircraft.

      For example, one alternative, the Tactical Transponder Landing System
      (TTLS), was estimated to cost about $500,000 per unit but was not pursued. In
      a February 20, 1997, memorandum to the Federal Aviation Administration, the
      Defense Advanced Research Projects Agency stated that the Commander,
      AMC, had asked the Defense Advanced Research Projects Agency to accelerate
      the TTLS Program and to complete its development by November 1997. In
      March 1997, the Federal Aviation Administration informed the Air Force
      Program Executive Officer for Airlift and Trainers that the TTLS is a viable
      precision landing alternative that can be developed as a military option for a
      transportable approach aid. The TTLS makes use of existing instrument landing
      system avionics used by most military and civilian aircraft today. The JPALS




                                           14
                 Air Mobility Command Precision Approach Landing Capability


    Near-Term, Integrated Product Team excluded the TTLS from consideration to
    meet the AMC CMNS because it was not far enough along in development to
    meet the need for an October 30, 1997, initial operational capability.

    Documenting JPALS Near-Term Integrated Product Team Results. The
    detailed support for the actions taken and recommendations made by the
    Near-Term Integrated Product Team are documented in the draft “Joint
    Precision Approach and Landing System (JPALS) Near-Term Working-Level
    Integrated Product Team (NT-WIPT) Assessment,” prepared for the Office of
    the Deputy Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence Acquisition). We considered draft versions
    of that report, dated January 1997 and March 1997, in preparing the audit
    report. However, the Air Force Program Executive Officer for Airlift and
    Trainers never approved a final version of that report, and officials from the
    Office of the Program Executive Officer did not know when the report would be
    finalized.


Conclusion
    Air Force program managers plan to install PLSR avionics units on
    C-17 aircraft to provide a precision landing capability when used with existing
    MMLS ground stations, even though the Air Force has not demonstrated the
    operational viability of using existing MLS capabilities to support deployments.

    Initial Operational Capability. The initial operational capability date of
    October 30, 1997, was unrealistic because no ongoing operational need
    mandates that date. Because of the initial operational capability date, the
    Air Force abbreviated the evaluation of alternatives that led to selecting the
    PLSR to meet AMC needs. Further, an adequate test plan was not designed by
    the Air Force because of the initial operational capability date and because of
    the lack of specific operational scenarios in the AMC CMNS.

    MLS Technology. The use of MLS technology for precision landing in support
    of deployments was not operationally proven, and the full economic cost of
    continuing to use the technology is not known. Existing precision radar systems
    can provide precision landing capability. Also, less costly alternative systems
    may be available.

    GPS Technology. In the long term, while GPS technology is expected to
    provide precision landing capability, the technology is still not fully developed,
    has not been proven reliable through adequate testing and evaluation, and the
    full cost of using GPS technology is not known.

    Potential Expenditures. The Air Force plan to install PLSR avionics units on
    up to 120 C-17 aircraft before demonstrating the operational capability of the
    MLS and GPS technology could result in the unnecessary expenditure of more
    than $105.1 million if the proposed capabilities of the PLSR cannot be
    effectively used during deployments.


                                         15
Air Mobility Command Precision Approach Landing Capability


      The Air Force should limit the acquisition and installation of the PLSR avionics
      units to one C-17 test aircraft and adequately and realistically test PLSR
      capabilities before finalizing decisions on which precision landing system will
      be installed on the planned 120 C-17 aircraft fleet. Based on the results of such
      realistic testing, the costs and benefits of using the PLSR avionics units can be
      fully evaluated along with other competing alternatives to meet DOD-wide
      precision landing needs under the ongoing JPALS Program.


Recommendations, Management Comments, and Audit
Response
      Summary of Management Comments. The Assistant Secretary of Defense
      (Command, Control, Communications, and Intelligence) stated that the
      Air Force draft response to the report contested that many discrepancies were in
      the draft audit report. The Assistant Secretary requested that the Inspector
      General, DOD, attempt to reconcile the disagreements with the Air Force prior
      to issuing the final report. Based on that request, we obtained additional
      information from the Air Force. The full text of the Assistant Secretary’s
      comments is in Part III. The Air Force management comments on the
      recommendations are summarized below. Appendix G summarizes the
      Air Force comments on the overall draft report. Based on the management
      comments, we readdressed the recommendations from the Assistant Secretary of
      Defense (Command, Control, Communications, and Intelligence) to the
      Air Force and we revised Recommendations 1. b. and 2.
      1. We recommend that the Assistant Secretary of the Air Force for
      Acquisition reevaluate the decision to install the Precision Landing System
      Receiver avionics units on C-17 aircraft. The reevaluation should include:
            a. Limiting the acquisition and installation of the Precision Landing
      System Receiver to one C-17 test aircraft.
      Air Force Comments. The Principal Deputy Assistant Secretary of the
      Air Force (Acquisition and Management) did not agree with the
      recommendation. The Air Force stated that a well-planned, event driven
      schedule was laid out for the Air Mobility Contingency Precision Approach
      Capability3 program and that arbitrarily limiting acquisition and installation to a
      single aircraft makes no sense. The program is based on a validated mission
      need and is following prescribed acquisition procedures. The PLSR will not be

      3The Air Mobility Contingency Precision Approach Capability program was
      established to identify solutions to the AMC CMNS. The solutions involved
      actions to develop and install the PLSR on C-17 aircraft for use with the
      MMLS ground receiver, which are discussed in this report. The Air Force
      actions to acquire the Ground Control Approach-2000 radar system are the
      subject of an on-going audit.



                                           16
             Air Mobility Command Precision Approach Landing Capability


installed on C-17 aircraft until after a fielding decision, supported by the results
of developmental and operational testing. The results of the phase I initial
operational test and evaluation, which will verify no loss of existing capability
and the addition of deployed MMLS capability, will be the basis of the decision
to install the PLSR. The complete text of the Air Force comments is in
Part III.

Audit Response. Testing the PLSR and the MMLS on a single aircraft makes
sense. Following the issuance of the draft audit report, the Air Force
implemented a plan to develop, integrate, and flight test the PLSR avionics unit
on a single C- 17 aircraft. That action satisfies the intent of the recommendation
and additional comments are not required.

       b. Proving the operational capability and feasibility of the Precision
Landing System Receiver to provide precision landing capability in support
of deployments through phase II of the test schedules before installing the
Precision Landing System Receiver on the C-17 fleet.
Air Force Comments. The Principal Deputy Assistant Secretary of the
Air Force (Acquisition and Management) did not agree with the draft report
recommendation. The Air Force stated that appropriate testing was planned and
that the PLSR will not be installed on C-17 aircraft until adequate testing has
successfully occurred.
Audit Response. Based on Air Force comments and additional audit work, we
updated the report to show the current status of testing. We also revised the
recommendation. The Air Force Operational Test and Evaluation Center is
conducting the initial operational testing. The initial operational test plan calls
for three phases of testing. The phase I operational testing started on
November 12, 1997. That testing was suspended on November 20, 1997,
because of scheduled maintenance of the C-17 test aircraft and additional
technical problems with the integration of the PLSR on the C-17. As of
January 6, 1998, C-17 System Program Office officials were not sure when the
operational testing would resume. Also, the Air Force has not yet determined
phase II and phase III test schedules.

The Air Force plans to acquire and install PLSR avionics units on
39 C-17 aircraft through retro-fit actions based on the completion of
phase I testing but not phase II testing and based on an Air Force Operational
Test and Evaluation Center prepared interim summary report on the results of
the phase I testing, which covers only a portion of the designed capabilities of
the PLSR. The Air Force Operational Test and Evaluation Center stated that
those actions were necessary to support the AMC CMNS timeline. The
Air Force Operational Test and Evaluation Center test manager stated that the
planned phase I testing of the PLSR will be done under the weather conditions
on the day of testing and may not replicate the adverse conditions that could be
reasonably expected during operational deployments. The test manager also
stated that he would prefer to conduct all operational testing of existing PLSR
capabilities as provided for under phase I and phase II of the current initial
operational test plan, so that the PLSR could be released without any flight
restrictions on the use of the MLS-based capability of the PLSR. We believe

                                     17
Air Mobility Command Precision Approach Landing Capability


      the test manager’s suggestion to be a more cost-effective and operationally
      sound approach to the testing of the PLSR. The current Air Force plans may
      result in the fielding of the PLSR with flight restrictions that will limit the
      operational utility of the PLSR on C- 17 aircraft.

      We request that the Air Force provide comments on the revised
      recommendation.
             c. Evaluating the costs and benefits of continuing the use of
      microwave landing system technology to provide precision landing
      capability in support of deployments.

      Air Force Comments. The Principal Deputy Assistant Secretary of the
      Air Force (Acquisition and Management) agreed with the recommendation.
      The Air Force stated that the JPALS Program and the Electronic Systems
      Center will stay current on the continuing use of MLS technology and that the
      Air Force will ensure that the JPALS Program conducts an appropriate costs
      and benefits analysis.

      Audit Response. The Air Force comments are responsive to the intent of the
      recommendation to evaluate the costs and benefits of continuing to use
      microwave landing system technology in support of deployments.

      We request that the Air Force provide us a target date for completion of the
      analysis and provide us with the documentation on the analysis of the costs and
      benefits of continuing to use MLS technology.
             d. Evaluating the costs and benefits of the Precision Landing
      System Receiver and other alternatives against established mission
      requirements under the ongoing DOD-wide Joint Precision Approach and
      Landing System Program.

      Air Force Comments. The Principal Deputy Assistant Secretary of the
      Air Force (Acquisition and Management) agreed with the recommendation.
      The Air Force stated that the cost and benefits of the PLSR will be evaluated as
      part of the JPALS analysis of alternatives cost trade-off analysis, along with
      other potential material alternatives.

      Audit Response. The Air Force comments are responsive to the intent of the
      recommendation to evaluate the costs and benefits associated with the PLSR.

      We request that the Air Force provide us a target date for completion of the
      analysis and provide us with the documentation on the analysis of the costs and
      benefits of the PLSR and other material alternatives.




                                          18
             Air Mobility Command Precision Approach Landing Capability


2. We recommend that the Assistant Secretary of the Air Force for
Acquisition provide guidance that the use of Air Force Instruction 63-114,
“Rapid Response Process,” does not relieve program officials from
properly documenting operational requirements, preparing cost analyses of
alternatives, finalizing Integrated Product Team reports, and planning
acquisitions as required by DOD Directive 5000.1, “Defense Acquisition,”
March 15, 1996, and by Federal Acquisition Regulation Part 7,
“Acquisition Planning.”

Air Force Comments. The Principal Deputy Assistant Secretary of the
Air Force (Acquisition and Management) disagreed with the draft report
recommendation and stated that periodic reminders can help maintain awareness
of acquisition procedures. However, special instructions were not warranted at
this time. The Air Force stated that the Air Mobility Contingency Precision
Approach Capability program was based on a validated and approved mission
need; acquisition plans followed Air Force Instruction 63-l 14, “Rapid Response
Process,” May 5, 1994; and the JPALS Overarching Integrated Product Team
approved the acquisition strategies with which the Under Secretary of Defense
for Acquisition and Technology concurred.

Audit Response. The Air Force did not adequately document and consider
existing nonmaterial solutions to the claimed immediate need for precision
landing capability on C-17 aircraft before validating the AMC CMNS. In
addition, the Air Force never clearly specified the operational requirements and
capabilities that required immediate support.

The initial operational capability date of October 30, 1997, restricted Air Force
evaluations of potential alternative solutions to the AMC CMNS. Also, there
were no life-cycle cost analyses of alternatives. As of January 6, 1998, as a
result of problems experienced during the limited (phase I) developmental and
initial operational testing scheduled for the PLSR, C-17 System Program Office
officials do not know when testing will be completed.

We recognized that the JPALS Overarching Integrated Product Team approved
acquisition strategies with which the Under Secretary of Defense for Acquisition
and Technology concurred. However, those acquisition strategies were
composed of briefing charts and point papers. Also, the JPALS Overarching
Integrated Product Team never issued a signed final report and decisions were
based on two draft reports.
The proper acquisition planning procedures to follow are those mandated by
DOD Directive 5000.1. Air Force Instruction 63-l 14 specifically states that the
Rapid Response Process does not replace normal acquisition procedures, but
rather speeds up the process to satisfy wartime needs.

We request that the Air Force provide comments on the revised
recommendation.




                                    19
Part II - Additional Information
Appendix A. Audit Process

Scope
    To accomplish the audit objective, we evaluated the Air Force selection of
    alternatives to satisfy the Air Mobility Command CMNS for deployable
    precision landing systems. Components of the selected systems we reviewed
    included :
           o the Precision Landing System Receiver (PLSR),

           o the Commercial Microwave Landing System Avionics,

           o the Mobile Microwave Landing System, and

           o the Airport Surveillance Radar and Precision Approach Radar.


Methodology
    We conducted this program audit from October 1996 through June 1997 in
    accordance with auditing standards issued by the Comptroller General of the
    United States, as implemented by the Inspector General, DOD. We obtained
    and examined documents related to precision landing systems for the period
    December 1981 through April 1997. We analyzed the operational status of the
    Mobile Microwave Landing System and of the Commercial Microwave Landing
    System Avionics, which was developed, produced, and is being installed at a
    cost of $97.7 million. We examined the program history of the development of
    the PLSR (previously called Military Microwave Landing System Avionics)
    since 1983 and examined contracts and requests for proposal, dated from
    January 1993 to February 1997, that had been prepared for the development,
    purchase, and installation of the PLSR on C-17 aircraft. Through February
    1997, the Air Force has expended about $101 million for the development and
    initial production of the PLSR. Additionally, we examined plans to purchase
    four Airport Surveillance Radar and Precision Approach Radar valued at
    $13 million. No computer-processed data were used during the audit.




                                      22
                                                       Annendix A. Audit Process



Contacts During the Audit
    We visited or contacted individuals or organizations within the DOD, the
    Federal Aviation Administration, the GEC-Marconi Electronics Systems
    Corporation, and the Advanced Navigation and Positioning Corporation.
    Further details are available upon request.


Management Control Program
    DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of Air Force management controls over acquisition planning for the
    Precision Landing System Receiver. Specifically, we reviewed management
    controls over the Air Mobility Command’s validation of the operational need
    and acquisition planning efforts by the Air Force Program Executive Office for
    Airlift and Trainers, the Air Force Aeronautical Systems Center, and the Air
    Force Electronic Systems Center. We also reviewed management’s
    self-evaluation of those controls.

    Adequacy of Management Controls. We identified material weaknesses as
    defined by DOD Directive 5010.38 for the Air Force. DOD policies and
    procedures require program and contracting officials to properly plan
    acquisitions so that users obtain quality products that provide measurable
    improvement to mission accomplishment, in a timely manner and at a fair and
    reasonable price. However, the Air Force did not follow DOD policies and
    procedures to ensure that realistic operational needs and capabilities were
    established and validated, test plans were developed, full program and life-cycle
    costs were identified, and competing alternatives were properly considered
    before modifying existing contracts to produce and install PLSR avionics units
    on C- 17 aircraft. Recommendations 1. and 2.) if implemented, will help to
    correct the weaknesses. Potential monetary benefits could be realized as a result
    of implementing Recommendation 1. However, we could not determine the
    amount because it will depend on subsequent actions taken by the Air Force.
    A copy of this final report will be provided to the senior official in charge of
    management controls for the Air Force.

    Adequacy ‘of Management’s Self-Evaluation. Air Force officials identified
    acquisition planning and contract support as assessable units; however, the
    Air Force assigned a low level of risk to those assessable units and did no
    further testing. Therefore, the Air Force did not identify the material
    weaknesses identified by the audit. The Air Force officials should have
    assigned a higher level of risk and tested the areas.


                                       23
Appendix B. Summary of Prior Coverage
   Inspector General, DOD, Report No. 97-204, “Undefinitized Contractual
   Actions,” August 15, 1997. The report states that the Military Departments
   did not always comply with the statutory provisions for the use of undefinitized
   contractual actions. Undefinitized contractual actions were not adequately
   justified, were not definitized in a timely manner, and the reasonableness of
   negotiated profit rates was not documented. As a result, the DOD contractual
   position in the award and negotiation process was weakened and contractors
   received profits that were not commensurate with the risk undertaken. The
   report recommended that the Service Acquisition Executives issue guidance to
   their contracting organizations requiring:

          o justification documents to provide specific details on the procurement
   requirement, the procurement planning performed, and the adverse effect if the
   procurement is delayed;

           o contracting officers to meet milestones for definitizing undefinitized
   contract actions; and
           o contracting organizations to establish performance goals for
   definitizing undefinitized contractual actions and tracking compliance with
   statutory and regulatory requirements.
   The Service Acquisition Executives generally concurred with the
   recommendations.

   Inspector General, DOD, Report No. 94-190, “Air Force Microwave
   Landing System,” September 20, 1994. The report states that the Office of
   the Assistant Secretary of Defense (Command, Control, Communications, and
   Intelligence) had not made the final selection of the best precision landing
   technologies to support the DOD precision landing requirements. As a result,
   the Air Force continued the Microwave Landing System program and began the
   development, purchase, and installation of Microwave Landing System
   hardware on C-130 aircraft. Further, the report states that the Air Force had
   not finalized analyses to determine and validate the number of Mobile
   Microwave Landing System ground stations needed to support the Air Force
   tactical precision landing requirements. We recommended that the Assistant
   Secretary of Defense (Command, Control, Communications, and Intelligence)
   determine the DOD precision landing requirements and select the best precision
   landing technologies to satisfy the DOD precision landing requirements. We
   also recommended that the Assistant Secretary of the Air Force (Acquisition)
   procure only 11 additional Commercial Microwave Landing System Avionics
   kits (thus reducing the number of kits to be procured by 238) for the remaining




                                       24
                                   Appendix B. Summary of Prior Coverage




C-130 aircraft, determine the number of Mobile Microwave Landing Systems
needed to support the Air Force tactical precision landing requirements, and
develop a fielding plan.
The Air Force reduced the Microwave Landing System program requirements
as of September 1994. The report identified potential monetary benefits of
$27.8 million that would result from the Air Force reduction of program
requirements.




                                  25
Appendix C. Glossary of Terms
   Air Force Landing Control Central (AN/TPN-19). The AN/TPN-19 is the
   primary Air Force deployable air traffic control and landing system in use
   today. It is composed of an AN/TPN-24 (ASR), an AN/TPN-25 (PAR), and
   the OK-235 and OK-236, which make up the Operations Control Center. The
   AN/TPN-19 is a complete ground control approach facility. The ASR and PAR
   are used by air traffic controllers to identify and locate arriving and departing
   aircraft and to provide final approach guidance. The AN/TPN-19 is capable of
   identifying aircraft with secondary radar out to 200 nautical miles, providing
   primary radar coverage out to 60 nautical miles (with ASR), and providing
   precision approach radar coverage for both azimuth and elevation from
   20 nautical miles to touchdown (with PAR). The Air Force has 10 AN/TPN-19
   systems in inventory.

   Airport Surveillance Radar (ASR). The ASR provides air traffic control
   operations with information on approaching and departing aircraft up to
   60 nautical miles from an airdrome runway. Air traffic controllers can use ASR
   to maintain separation of aircraft and provide for terminal airspace traffic
   management.

   Air Traffic Control and Landing Systems (ATCALS). ATCALS are
   DOD facilities, personnel, and equipment (fixed, mobile, and seaborne) with
   associated avionics to provide safe, orderly, and expeditious aircraft movements
   worldwide.

   Commercial Microwave Landing System Avionics (CMLSA). The CMLSA
   is a microwave landing system that provides precision landing capability when
   used with microwave landing system ground equipment. The CMLSA is based
   on a Canadian Marconi Company CMA-2000 Microlander system, which was
   modified to meet Air Force requirements. The CMLSA is installed on about
   438 C-130 aircraft out of a total, planned installation of 550 C-130 aircraft.

   Instrument Landing System (ILS). ILS has been the primary fixed-base,
   worldwide precision landing system in use for about 40 years at civilian and
   military airports. The ILS ground station transmits electronic information to
   avionics receivers in the aircraft cockpit. The pilot uses this information from
   the cockpit instruments to keep the aircraft on the proper approach glidepath and
   aligned to the runway.

   Global Positioning System (GPS). The GPS is a constellation of U.S.
   Navigation System satellites that use timing and ranging data to provide
   three-dimensional position and velocity information to users. Currently, the




                                      26
                                               Appendix C. Glossary of Terms




GPS system does not provide the accuracy, integrity, and availability for use as
a precision landing system. Plans call for GPS to be augmented with a
precision ground reference station, such as the Local Area Differential GPS or
Wide Area GPS Enhancement or other system.

Joint Precision Approach and Landing System (JPALS) Program. The
JPALS Program was established to satisfy the needs of the joint mission need
statement for the Army, the Navy, and the Air Force, for Precision Approach
Landing Capability. The primary objective of the JPALS Program is to define
the future aircraft precision approach and landing control system architecture for
DOD. The Air Force was designated lead Military Department for the
JPALS Program. The Air Force Program Executive Officer for Airlift and
Trainers is the executive agent for JPALS efforts responsible for coordinating
and facilitating execution of a streamlined acquisition process.

Local Area Differential GPS. Local Area Differential GPS avionics and
ground system will be composed of new GPS or modified avionics integrated
with a data link to receive differential corrections and integrity information from
a militarized ground system. Local Area Differential GPS uses a GPS receiver
at a surveyed location, compares the electronically derived GPS position to the
surveyed position, and broadcasts the difference in position (that is, error) to
suitably equipped aircraft. Local Area Differential GPS is dependent on the
development of aircraft GPS receivers and a militarized and transportable
ground station.
Microwave Landing System (MLS). MLS is a follow-on precision landing
system to the instrument landing system. In the early 198Os, the Federal
Aviation Administration demonstrated that the microwave landing system could
replace the ILS. However, in June 1994, the Federal Aviation Administration
decided to halt further development of the microwave landing system in favor of
the GPS and its potential to provide precision landings.

Mobile Microwave Landing System (MMLS). MMLS is an all-weather,
lightweight, transportable ground-based precision landing system designed for
rapid deployment. The MMLS is transportable by one C- 130 aircraft and can
be set up by three people.

Optical Microwave Approach and Ranging (OMARTM). OMARTM uses a
ground unit with microwave optical technology to present a high-frequEncy
guidance signal to the aircraft, somewhat resembling an ILS. OMAR began
as a developmental system for the automatic landing of unpiloted aerial vehicles
under a small business incentive contract with the Army. A fully qualified and
flight-tested system requires avionics development, platform integration, flight
testing, and preproduction engineering.




                                    27
Appendix C. Glossary of Terms




      Precision Approach Radar (PAR). PAR is used by air traffic control
      operations to guide aircraft on final approach for landing during poor visibility
      and adverse weather. The air traffic controller communicates with the pilot,
      normally within a range of 10 to 20 nautical miles, giving instructions as needed
      to keep the aircraft on the proper approach glidepath and aligned to the runway.
      Precision Landing System Receiver (PLSR). PLSR (formerly called the
      Military Microwave Landing System Avionics receiver) is being developed by
      GEC-Marconi Electronics Systems Corporation under contract with the
      Air Force Electronic Systems Center. PLSR is designed to receive both
      microwave landing system and frequency modulated, protected
      ILS transmissions with growth potential to a GPS precision approach capability.
      This growth capability is contingent upon the augmentationof the GPS with a
      precision ground reference station, completion and loading of a new version of
      PLSR software, interface with a GPS antenna, and modification of the
      applicable aircraft mission computer. The PLSR is also being designed to be
      compliant with international standards for frequency modulation interference.

      Tactical Transponder Landing System. The Tactical Transponder Landing
      System (TTLS) is a precision ground system that uses the existing aircraft
      ILS avionics and identification friend or foe transponder to provide guidance to
      the aircraft. With the TTLS, the base station receives and processes the
      aircraft’s transponder signal and generates ILS localizer and glide slope signals
      for the aircraft instrumentation. The TTLS is being developed by the Advanced
      Navigation and Positioning Corporation under a cooperative agreement
      sponsored by the Defense Advanced Research Projects Agency. The TTLS is
      transportable by one C-130 aircraft and can be set up by three people.
      Wide Area GPS Enhancement. Wide Area GPS Enhancement is an accuracy
      enhancement to the GPS. Wide Area GPS Enhancement requires modifications
      to current GPS receiver sets and integration with an onboard database
      management system. Wide Area GPS Enhancement consists of three phases.
      The first phase modifies spare bits in the satellite broadcast message to encode
      corrections for authorized users and has been completed. The second phase will
      increase the number of monitor stations in ground equipment to incorporate
      state-of-the-art signal processing. The third phase will facilitate more
      navigation uploads. The availability of the full-up Wide Area GPS
      Enhancement system is projected beyond the year 2000.




                                          28
Appendix C. Glossary of Terms




      Precision Approach Radar (PAR). PAR is used by air traffic control
      operations to guide aircraft on final approach for landing during poor visibility
      and adverse weather. The air traffic controller communicates with the pilot,
      normally within a range of 10 to 20 nautical miles, giving instructions as needed
      to keep the aircraft on the proper approach glidepath and aligned to the runway.
      Precision Landing System Receiver (PLSR). PLSR (formerly called the
      Military Microwave Landing System Avionics receiver) is being developed by
      GEC-Marconi Electronics Systems Corporation under contract with the
      Air Force Electronic Systems Center. PLSR is designed to receive both
      microwave landing system and frequency modulated, protected
      ILS transmissions with growth potential to a GPS precision approach capability.
      This growth capability is contingent upon the augmentation of the GPS with a
      precision ground reference station, completion and loading of a new version of
      PLSR software, interface with a GPS antenna, and modification of the
      applicable aircraft mission computer. The PLSR is also being designed to be
      compliant with international standards for frequency modulation interference.

      Tactical Transponder Landing System. The Tactical Transponder Landing
      System (TTLS) is a precision ground system that uses the existing aircraft
      ILS avionics and identification friend or foe transponder to provide guidance to
      the aircraft. With the TTLS, the base station receives and processes the
      aircraft’s transponder signal and generates ILS localizer and glide slope signals
      for the aircraft instrumentation. The TTLS is being developed by the Advanced
      Navigation and Positioning Corporation under a cooperative agreement
      sponsored by the Defense Advanced Research Projects Agency. The TTLS is
      transportable by one C-130 aircraft and can be set up by three people.
      Wide Area GPS Enhancement. Wide Area GPS Enhancement is an accuracy
      enhancement to the GPS. Wide Area GPS Enhancement requires modifications
      to current GPS receiver sets and integration with an onboard database
      management system. Wide Area GPS Enhancement consists of three phases.
      The first phase modifies spare bits in the satellite broadcast message to encode
      corrections for authorized users and has been completed. The second phase will
      increase the number of monitor stations in ground equipment to incorporate
      state-of-the-art signal processing. The third phase will facilitate more
      navigation uploads. The availability of the full-up Wide Area GPS
      Enhancement system is projected beyond the year 2000.




                                         28
Appendix D. Precision Landing System Receiver
Program History
   In 1983, the Air Force was designated lead Military Department for DOD MLS
   procurement. The Air Force was to define, develop, and procure MLS avionics
   for all DOD aircraft that were not identified to receive the Navy-developed
   multi-mode receiver.

   In June 1987, the ESC awarded five contracts for concept development of the
   Military Microwave Landing System Avionics receiver at a cost of about
   $0.5 million each. The contracts were completed in October 1988, and each
   contractor demonstrated a functional model of a two-band MLS/ILS receiver
   and provided custom chip descriptions, producibility reports, and reliability
   predictions for their proposed designs.
   In December 1989, the ESC awarded three contracts for a 30-month Military
   Microwave Landing System Avionics Engineering and Manufacturing
   Development Phase I effort. Each contractor delivered test units to the
   Government, and those units were tested from March through August 1992.
   The results of the test were to be provided as Government-furnished information
   during the Engineering and Manufacturing Development Phase II effort.

   In June 1993, the ESC awarded a contract to GEC-Marconi Electronics Systems
   Corporation for the Engineering and Manufacturing Development Phase II
   effort. The contractor was to develop an avionics receiver, the Military
   Microwave Landing System Avionics receiver, capable of receiving and
   processing signals from ILS and MLS ground stations to execute precision
   landings to Category I (200-foot decision height and one-half mile visibility),
   Category II (lOO-foot decision height and one-quarter mile visibility), and
   Category III (50 foot decision height and zero visibility) minima. The award
   was for $13.3 million and provided for 30 Military Microwave Landing System
   Avionics receivers, training, and technical data. The contract also included
   options to purchase up to 2,200 Military Microwave Landing System Avionics
   units.

   In June 1994, the Federal Aviation Administration decided to halt further
   development of the MLS for Category II and III precision approach landings
   and canceled two contracts for that development. The Federal Aviation
   Administration indicated that the GPS could already handle nonprecision
   approach landings and had great potential to provide precision approach
   landings. Further, according to the Federal Aviation Administration,
   “continuing the MLS development program is not an economically sound
   strategy, since all indications are that we will never need to deploy Category II
   and III systems in any significant numbers.”



                                       29
Appendix D. Precision Landing System Receiver Program History



      In March 1995, the ESC entered into a Cooperative Research and Development
      Agreement with GEC-Marconi Electronics Systems Corporation to demonstrate
      the feasibility of incorporating a differential GPS capability into the two-band
      (ILS/MLS) Military Microwave Landing System Avionics receiver while
      maintaining performance and physical requirements. The agreement was
      initiated because the Military Microwave Landing System Avionics receiver
      being procured from GEC-Marconi Electronics Systems Corporation could not
      maintain civil operability with the 1994 Federal Aviation Administration
      decision to halt MLS development in favor of a GPS-based landing system
      technology. Under the agreement, the Air Force provided a prototype Military
      Microwave Landing System Avionics receiver, test aircraft, and ground
      facilities. GEC-Marconi Electronics Systems Corporation provided integration
      and flight test support. A test program was conducted from September 21,
      1995, through November 6, 1995, using a Sikorsky S-76 helicopter and a
      C-135C “Speckled Trout” aircraft. A September 6, 1996, final report on the
      results of the test program, prepared for the ESC by ARINC, Incorporated,
      concluded that a three-band (ILS/MLS/differential GPS) receiver, the PLSR,
      was feasible.

      In October 1995, the ESC issued a partial stop-work order to stop work on all
      efforts for the Military Microwave Landing System Avionics receiver, except
      for bench testing and procedure, testing radio frequency modules, and
      debugging the receiver processor unit. The stop-work order was issued because
      using commands were no longer interested in the two-band (ILS/MLS) system,
      and the ESC was considering developing a three-band (ILS/MLS/differential
      GPS) landing system. This partial stop-work was extended three times through
      July 1996.

      On May 7, 1996, the House Committee on National Security, noted in the
      “National Defense Authorization Act for Fiscal Year 1997” (House Report
      104-563) that the Air Force had expended about $501 million to develop an
      all-weather, worldwide landing capability for military aircraft, but the Air Force
      budget did not contain any funding for procurement of the PLSR. The
      committee recommended $5 million to complete development of the program
      and requested that the Secretary of the Air Force assess the cost and operational
      effectiveness for procurement of the PLSR and provide a report on the results of
      this assessment to the congressional defense committees by February 1, 1997.
      The Air Force response was submitted to Congress on February 28, 1997. The
      response is discussed later in this appendix.

      On July 16, 1996, GEC-Marconi Electronics Systems Corporation submitted a
      Class I Engineering Change Proposal to the ESC. The Engineering Change
      Proposal was approved by the ESC on July 18, 1996, and was issued to


      ‘Through February 1997, the Electronic Systems Center has expended about
      $10 1 million for the development and production of the PLSR (previously called
      Military Microwave Landing System Avionics receiver).



                                          30
         Appendix D. Precision Landing System Receiver Program History



incorporate a differential GPS capability into the Military Microwave Landing
System Avionics receiver at a cost of $2.7 million. The program name changed
from Military Microwave Landing System Avionics to the PLSR.
In September 1996, AMC prepared a draft Precision Approach Capability
CMNS. The CMNS was validated by the Commander, AMC, on
November 14, 1996, and was approved by the Chief of Staff of the Air Force
on December 11, 1996.
On December 23, 1996, the ESC issued a modification to accelerate the PLSR
schedule and to modify production options to incorporate changes for increased
functionality and to meet the initial operational capability date of October 30,
1997, established by the CMNS. Through February 26, 1997, options were
exercised by the ESC to procure 117 PLSR production units and by the
Aeronautical Systems Center to install PLSR on 35 C-17 aircraft.
On January 6, 1997, in letters* to Congress, the Air Force Deputy Assistant
Secretary for Budget stated that the Air Force intends to initiate a new start
modification for the C- 17 in support of the AMC CMNS . The Air Force stated
that the total estimated cost over the Five Year Defense Plan was $54.6 million
for research, development, and procurement of a ground based radar, avionics,
and aircraft modifications starting in fiscal year 1997. The estimate provided
for the development, production, and installation of PLSR avionics units on
40 C-17 aircraft ($40.7 million); flight check equipment ($0.9 million); and
procurement of 4 ASR/PAR systems ($13 million).
On February 28, 1997, in response to the May 17, 1996, congressional request,
the Air Force stated that the PLSR was being evaluated under the JPALS
Program analysis of alternatives and would be completed in September 1997.
The Air Force stated that it would provide the requested information when it
forwarded the results of the JPALS analysis of precision landing needs to the
congressional defense committees.




*Letters sent to Chairmen and Ranking Minority Memebrs of the Senate
subcommittee on Defense, Committee on Appropriations, and of the House
Subcommittee on National Security, Committee on Aoppropriations.


                                    31
Appendix E. Sole-Source, Undefinitized
Contractual Actions
   The ESC and the Aeronautical Systems Center (ASC) use of sole-source,
   undefinitized contractual actions to accelerate the development, production, and
   installation of the PLSR on C-17 aircraft was not justified because the Air Force
   did not properly document and support the AMC CMNS requirement for
   precision landing capability on a minimum of 35 C-17 aircraft by October 30,
   1997.

   Regulatory Guidance. United States Code, title 10, section 2326, (10 U.S.C.
   2326), “Undefinitized Contractual Actions: Restrictions,” states that:
              The head of an agency may not enter into a UCA [undefinitized
              contractual action] unless the request to the head of the agency for
              authorization of the UCA[undefinitized contractual action] includes a
              description of the anticipated effect on requirements of the military
              department concerned if a delay is incurred for purposes of
              determining terms, specifications, and price before performance is
              begun under the contract action.

   Federal Acquisition Regulation 6.303, “Justifications, ” states that technical and
   requirements personnel are responsible for providing and certifying as accurate
   and complete the necessary data to support recommendations for other than full
   and open competition. Federal Acquisition Regulation 6.303 further states that
   contracting officers shall not commence negotiations for sole-source contracts
   until the contracting officers justify the use of a sole-source contract in writing
   and certify to the accuracy and completeness of the justification.

   Defense Federal Acquisition Regulation Supplement 217.74, “Undefinitized
   Contract Actions, ” subparagraph 2 17.7403, “Policy, ” states that undefinitized
   contractual actions shall be used only when contracting officials cannot negotiate
   definitive contracts in time to meet the Government’s requirements. Defense
   Federal Acquisition Regulation Supplement 2 17.7404- 1 also requires that the
   contracting officer request for Undefinitized Contractual Action approval
   include a full explanation of the need to begin contract performance before
   contract definitization.




                                          32
                Appendix E. Sole-Source, Undefinitized Contractual Actions



Sole-Source, Undefinitized Contractual Actions. ESC and ASC issued
six sole-source, undefinitized contractual actions, valued at $42.9 million. The
three undefinitized contractual actions issued by ESC against contract
F19828-93-C-0116 with GEC-Marconi Electronics Systems Corporation follow.

      o Modification POOO17, with a negotiated value $2.0 million, was issued
on December 23, 1996, to accelerate the development and contractor testing of the
PLSR.

        o Modification PO001 8, with a negotiated value of $4.6 million, was
issued on December 30, 1996, to procure 9 PLSR test units, 16 PLSR production
units, and 14 PLSR spare units and for engineering services and related travel.
Also, the modification updated the unit costs for existing contract options to
procure up to 2,200 PLSR units over 3 production years. The maximum option
quantities and cost per unit for each production year are: production year 1 -
600 units at $69,500; production year 2 - 800 units at $56,973; and production
year 3 - 800 units at $56,427.

        o Modification POOO21, with a negotiated value of $5.4 million, was
issued on February 2, 1997, to procure 78 PLSR production units.

ASC issued three undefinitized contractual actions against ongoing contracts
with McDonnell Douglas Aircraft as follows.

        o Delivery order 0018 (contract F33657-95-D-2026), with a negotiated
value of $16.5 million, was issued on November 26, 1996, to develop,
integrate, and flight test the PLSR on the C-17.

         o Modification PO0046 (contract F33657-95-C-2027), with a negotiated
value of $12.4 million, was issued on February 18, 1997, to plan, procure, and
accumulate parts for installation of the PLSR, for field support, and for the
retrofit of 39 C-17 aircraft with the PLSR.

       o Modification PO0023 (contract F33657-96-C-2059), valued at
$2.0 million, was issued on February 3, 1997, to incorporate installation of the
PLSR into the C-17 production line. The modification was still unnegotiated as
of December 10, 1997.

Justifications for ESC and ASC Sole-Source, Undefinitized Contractual
Actions. ESC prepared two justification documents and ASC prepared three
justification documents for the undefinitized contractual actions. Justification
documents must include supporting rationale and must describe operational and
program effects. The ESC and ASC justifications stated that the contract




                                    33
Appendix E. Sole-Source, Undefinitized Contractual Actions


      actions were necessary to meet the October 30, 1997, initial operational
      capability established-by the AMC CMNS. ESC described operational and
      program effects as follows:
                The Air Force’s ability to provide credible power projection stands in
                jeopardy due to the operational limitations of current deployable
                precision approach systems. Currently the world’s premier airlift
                aircraft (i.e. the C-17) does not have the capability to land at austere
                airfield[s] in inclement weather. This deficiency severely limits the
                United States’ ability to conduct contingency, humanitarian and
                peacekeeping missions around the globe.

      The operational and program effects for two (Delivery order 0018 and
      modification POO046) of the ASC contractual actions were:
                    The C-17 will not have the capability to perform Category I (200’,
                l/2 mile) approaches into austere airfields equipped with mobile
                microwave landing systems and thus not meet AMC’s C-MNS.

      The operational and program effect for ASC modification PO0023 was:

                To maintain a single aircraft configuration with the same aircraft
                capabilities, the program will install the capability at the earliest
                production incorporation point. There is significant cost savings by
                installing the capability during the production phase versus using
                retrofit actions. Without the UCA, capability would be further
                delayed to the future fleet.

      The justification statements made by ESC and ASC were based on statements in
      the AMC CMNS. However, the CMNS was neither properly validated nor
      supported by reliable documented analysis or acquisition plans.

      Potential Effect of Sole-Source, Undefinitized Contractual Actions
      Contracting. Contracting officials did not fully comply with regulatory
      guidance concerning sole-source, undefinitized contractual actions.
      Consequently, a potential exists for increased prices for goods and services.
      Further, the use of undefinitized contractual actions may weaken the DOD
      position in negotiating and definitizing the final contract price. Although we
      considered the use of those sole-source actions inappropriate, we did not make
      any recommendations because Inspector General, DOD, Report No. 97-204,
      “Undefinitized Contractual Actions, ” August 15, 1997 (see Appendix B),
      addresses those concerns.




                                              34
Appendix F. Estimated Costs for Air Mobility
Command Precision Landing Needs
   The Air Force may spend $105.1 million ($118.1 million less $13 million for
   planned ASR/PAR procurement) for PLSR avionics units on C-17 aircraft.

   The table shows initial estimated funding requirements presented to the
   Overarching Integrated Product Team on October 16, 1996; estimated funding
   requirements submitted to Congress on January 6, 1997, to implement the
   AMC CMNS solution, to include the planned acquisition of four ASR/PAR
   systems; and potential estimated funding requirements to utilize the
   GPS upgrade capability of the PLSR and to outfit the planned 120 C- 17 aircraft
   fleet with PLSR avionics units.


       Estimated Funding Requirements for AMC Precision Landing Needs

                               Dollars in Millions
                            Item                         Initial        Congress Potential
         Aircraft integration                             $39.1’          $40.7*   $45.63
         MMLS deployability                                   0.5           0.9      0.9
         Planned ASR/PAR procurement                                       13.0     13.0
         Developmental flight test                                                   0.1
         Developmental and initial operational
         (C-17) flight test                                                           1.6
         Trainer updates                                                              0.7
         Develop, test, and integrate differential                                   38.04
         GPS                                         I              I            I


         Outfit remaining C-17 fleet                                                18.25
           Total                                          $39.6 1         $54.6 1 $118.1 1




   ‘Estimated cost to outfit 35 C-17 aircraft and 12 C-5 aircraft with
   PLSR avionics units, 12 C-141 aircraft with CMLSA receivers, and
   $2.0 million for operation and maintenance. On November 14, 1996, the
   Commander, AMC, deleted the requirement for the 12 C-5 aircraft and the
   12 C-141 aircraft.

   2Estimated costs to develop, produce, and install PLSR avionics units on
   40 C-17 aircraft.



                                      35
Appendix F. Estimated Costs for Air Mobility Command Precision Landing Needs



      3Estimated cost to develop, test, and procure 117 PLSR avionics units (based on
      three ESC undefinitized contractual actions for $12.0 million); to develop,
      integrate, flight test, retrofit PLSR avionics units on 40 C-17 aircraft, and to
      integrate PLSR installation into the C-17 production line (based on three
      ASC undefinitized contractual actions for $30.9 million). The estimate also
      includes an ESC fixed price modification for $2.7 million to incorporate
      differential GPS capability into the PLSR.

      4Additional costs that the C-17 System Program Office estimated to develop,
      test, and integrate the differential GPS capability of the PLSR avionics units on
      C-17 aircraft. The estimated costs are based on a periodic update,
      “C-17 Precision Landing System Receiver (PLSR) MOD [modification] Status
      Air Mobility Contingency Precision Approach Capability (AMCPAC), ”
      March 3, 1997, signed by the Program Director for the C-17 System Program
      Office.

      ‘Additional estimated costs to procure 144 PLSR avionics units and to install
      PLSR avionics units on 80 C-17 aircraft based on C-17 System Program Office
      cost data.




                                          36
Appendix G. Air Force Comments on the Draft
Audit Report and Audit Response

Introduction
     This appendix summarizes Air Force comments on the audit background and
     finding. Air Force comments are included in their entirety in Part III of this
     report. The Air Force also provided additional documents in its response to the
     draft audit report. Those documents were considered in preparing the final
     audit report. Those documents are too voluminous to include in their entirety in
     the final audit report but are available on request.

     Air Force Comments. The Air Force stated the audit background paragraph
     “Decision Briefing of the JPALS Overarching Integrated Product Team” was
     inaccurate. The Commander, AMC, did not direct the JPALS Near-Term,
     Integrated Product Team to hasten its efforts, and the Air Force Program
     Executive Officer for Airlift and Trainers convened a “Tiger Team” that was
     separate from the JPALS Near-Term, Integrated Product Team but with many
     of the same members to meet AMC requirements. The Overarching Integrated
     Product Team approved the acquisition strategy, as did the Commander, AMC.
     The Under Secretary of Defense for Acquisition and Technology concurred with
     the recommendations on October 28, 1996, and concurred with the DOD JPALS
     Overarching Integrated Product Team report on January 13, 1997. The
     recommended number of ASR/PAR systems to purchase was raised from two to
     four.

     Audit Response. We disagree that the paragraph is inaccurate. The
     October 16, 1996, briefing, “Joint Precision Approach and Landing System
     (JPALS) Overarching IPT [Integrated Product Team] (OIPT) [on] Air Mobility
     Command (AMC) Contingency Precision Approach, ” stated that in “Early Sep
     [September] 96 [1996] CINCTRANSCOM [Commander in Chief, U.S.
     Transportation Command] requested accelerated assessment: . . .” by the
     JPALS Near-Term, Integrated Product Team. The “Tiger Team” is identified
     in the report as a part of the JPALS Near-Term, Integrated Product Team
     Working Group. The intent of the paragraph was to describe the principal
     recommendations made by the JPALS Near-Term, Integrated Product Team and
     actions leading to those October 16, 1996, recommendations. In preparing the
     report, we recognized that the Overarching Integrated Product Team approved
     the recommended acquisition strategy, which encompassed the principal JPALS
     Near-Term, Integrated Product Team recommendations and that the Under




                                        37
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      Secretary of Defense for Acquisition and Technology concurred with those
      recommendations. We also recognized that the recommendation to purchase
      two ASR/PAR systems was later raised to four systems.

      We also recognize that the Under Secretary of Defense for Acquisition and
      Technology concurred with recommendations made by the DOD JPALS
      Overarching Integrated Product Team on October 28, 1996, and January 13,
      1997. Those recommendations were addressed in two memorandums dated
      October 28, 1996, and January 7, 1997, from the Deputy Assistant Secretary of
      Defense (Command, Control, Communications, and Intelligence Acquisition)
      (who is the Chairman, JPALS Overarching Integrated Product Team). Both
      memorandums were addressed to the Under Secretary of Defense for
      Acquisition and Technology and the Principal Deputy Under Secretary of
      Defense (Acquisition and Technology), and the subject of both memorandums
      was “Joint Precision Approach and Landing System (JPALS) Overarching
      Integrated Product Team (OIPT) Report. ” However, those memorandums
      provided only summary information on overall JPALS initiatives, to include
      JPALS Near-Term, Integrated Product Team actions and recommendations on
      the immediate need for precision landing capability for C-17 aircraft and
      problems related to the full employment of the MMLS. The immediate
      AMC need for precision landing capability was not adequately supported, and
      the extent of problems associated with the full employment of the MMLS was
      not fully and accurately identified before the JPALS Near-Term, Integrated
      Product Team recommendations to accelerate development and install the PLSR
      on C-17 aircraft. We believe that senior-level DOD officials may not have been
      provided complete information before the Air Force recommended its solution
      to meet the AMC CMNS.

      Further, even though the January 7, 1997, memorandum stated, “The
      Near-Term IPT [Integrated Product Team] has completed all of its tasks,”
      documentation of those tasks and actions to implement Near-Term Integrated
      Product Team recommendations has not been finalized and approved. We
      revised the report to show the status of the JPALS Near-Term Integrated
      Product Team results.

      Air Force Comments. The Air Force stated that the draft report understated
      the potential use of MLS technology because the draft report mentioned only
      intentions of Great Britain and the Netherlands to field MLS technology, and
      the Air Force recommended that the report should state that the United States,
      Italy, the United Kingdom, Denmark, and Belgium plan to implement MLS
      technology. The Air Force also stated that Belgium, Canada, Denmark, Spain,
      the Netherlands, Turkey, the United Kingdom, and the United States identified
      the potential need for a multi-mode landing system receiver avionics or the
      MLS. The Air Force further stated that the International Civil Aviation




                                        38
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      Organization recommended use of multi-mode landing system receiver avionics
      and that the Airlines Electronic Engineering Committee is developing
      specifications for a multi-mode landing system.

      Audit Response. We agree with the Air Force comments and revised the
      report.

      Air Force Comments. The Air Force stated that the report incompletely and
      inaccurately described the planned use and capabilities of the PLSR. The
      Air Force stated that the report did not acknowledge the operational impact of
      the added frequency modulation protection being incorporated in the PLSR
      design, that the concept of a multi-mode landing system receiver was a key
      recommendation of the International Civil Aviation Organization and that the
      PLSR is being designed as a multi-mode receiver. Further, the report did not
      acknowledge that the PLSR will be compatible with Federal Aviation
      Administration and International Civil Aviation Organization standards for
      precision landing using ILS, MLS, or GPS .
      Audit Response. We disagree that the report is inaccurate. We recognize that
      the requirement for frequency modulation protection and the work of the
      International Civil Aviation Organization and the Airlines Electronic
      Engineering Committee concerning multi-mode receivers are important
      considerations, and we believe that those considerations should be thoroughly
      documented and evaluated under the ongoing JPALS program. However, the
      requirement for frequency modulation protection was not critical to the alleged
      AMC CMNS need for immediate precision landing capability for C-17 aircraft.

      Air Force Comments. The Air Force disagreed with the statement, “Air Force
      program managers plan to install PLSR avionics units on C-17 aircraft to
      provide precision landing capability when used with existing MMLS ground
      stations, even though the Air Force has not demonstrated the operational
      viability of using existing MLS capabilities to support deployments.” The
      Air Force stated that it has shown the operational use of the existing
      MMLS ground station and that AMC was working to correct deficiencies noted
      to date. Also, the Air Force followed acquisition procedures based on
      Air Force Instruction 63-l 14.

      Audit Response. The Air Force was unsuccessful in its initial attempts to
      deploy the MMLS to Bosnia during the early stages of Operation Joint Endeavor
      and, further, the Air Force has not successfully demonstrated the operational
      feasibility of existing MLS capabilities to provide precision landing capability
      during an operational deployment. An ESC program official informed us that
      an MMLS was deployed to Bosnia in 1997 but was later shut down because of
      the costs involved in maintaining and operating the system and that the Air
      Force could not land C-130 aircraft because of continuing problems with the
      CMLSA receivers installed on the C-130 aircraft. The MMLS and the



                                         39
Annendix G. Air Force’Comments on the Draft Audit Report and Audit Response




      CMLSA-equipped C-130 aircraft still cannot be used to support deployments.
      The ESC program official also stated that the United States Air Force Europe
      was concerned about the costs of having to train, operate, and maintain the
      MMLS and precision approach radar systems to support deployment
      requirements. Moreover, neither AMC nor the Air Force could provide
      evidence that the MMLS can be deployed on 12-hours notice, be set up by
      three personnel, and be operational as desired by AMC to support deployments.
      We recognize that AMC is working toward correcting problems identified with
      the use of MLS technology to support deployments; however, the corrections
      are still ongoing and the feasibility of deploying as a first-in capability is still
      unproven. The Air Force Rapid Response Process covered under Air Force
      Instruction 63-l 14 does not waive any of the requirements of DOD Directive
      5000.1 or the Federal Acquisition Regulation.
      Air Force Comments. The Air Force disagreed with comments on the
      operational capability of MLS technology. The Air Force stated that the report
      was misleading because it did not state that the Air Force was correcting the
      MMLS and CMLSA problems that occurred during Operation Joint Endeavor.

      Audit Response. The report states that the Air Force initiated actions to correct
      known deficiencies with the MMLS and the CMLSA. However, initiating those
      actions does not make the MMLS and CMLSA operationally deployable.
      Further, additional follow-on test and evaluation will be needed, but the
      Air Force has yet to develop the test plan to assess those corrective actions.

      Air Force Comments. The Air Force stated that the report was inaccurate
      because it did not address Air Force funding reductions for MLS programs after
      the Federal Aviation Administration halted development of MLS technology in
      1994. Also, the Air Force stated that it continued its effort involving MLS
      technology to capitalize on MMLS and CMLSA sunk costs and to take
      advantage of the improved tactical capability that those systems provided.

      Audit Response. We revised the report to show that the Air Force reduced
      funding for MLS programs as a result of Inspector General, DOD, Report
      No. 94-190, “Air Force Microwave Landing System,” September 20, 1994.
      While the Air Force may have decided to take advantage of sunk costs in its
      MLS program, the Air Force has not provided any analysis that proves the cost-
      effectiveness of those decisions. Also, the full costs of correcting deficiencies
      with the existing MMLS and CMLSA-equipped C-130 aircraft, of adding
      MLS capability to C-17 aircraft, and of making those systems a viable
      operational capability are unknown.

      Air Force Comments. The Air Force disagreed that plans to correct
      deficiencies with the MMLS and CMLSA were not finalized and stated that
      formal actions to correct those deficiencies are ongoing and projected to be
      completed by December 1997.




                                           40
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      Audit Response. Based on the Air Force response and additional information
      AMC provided, we revised the report to reflect that the Air Force expects all
      deficiencies to be corrected by December 1997.

      Air Force Comments. The Air Force stated that the electromagnetic
      compatibility and interference problems are unique to CMLSA-equipped
      C-130 aircraft and are not relevant to the C-17 modification. The Air Force also
      stated that follow-on test and evaluation will be conducted after all
      CMLSA deficiencies have been corrected and the system has been operationally
      used for a period of time.

      Audit Response. The intent of the paragraph “Status of Follow-on Test and
      Evaluation” was to document the status of follow-on test and evaluation of the
      MMLS and CMLSA-equipped C-130 aircraft. The Air Force had not provided
      information to show whether electromagnetic compatibility and interference
      problems associated with the C-130 aircraft are relevant to the
      C-17 modification. We believe it prudent to consider those problems in
      conducting electromagnetic compatibility and interference testing on the
      C- 17 modification.

      Air Force Comments. The Air Force stated that the Combat Air Delivery
      School comments are based on a concept of operations that the Air Combat
      Command prepared and do not relate to current information. Further, the
      Air Force stated that the Air Force Special Operations Command expected to
      finalize a new concept of operations by October 3 1, 1997, and that a new
      Air Mobility Command concept of operations would be approved by
      September 1997.

      Audit Response. We clarified the report to show that the Combat Air Delivery
      School comments applied to the Air Combat Command prepared concept of
      operations. However, we believe those comments are still applicable because
      the Air Force Special Operations Command and the Air Mobility Command had
      not finalized and approved a new concept of operations for deployment as of
      January 9, 1998. We updated the report to reflect the current status of the
      concept of operations for the MMLS.

      Air Force Comments. The Air Force stated that rationale for the initial
      operational capability date of October 30, 1997, was because the date was
      deemed the soonest achievable given the technology and the acquisition realities.
      The date was selected on October 16, 1997. The Air Force stated that the
      rationale was documented in the AMC CMNS and that the CMNS was prepared
      in accordance with Air Force Instruction 63-l 14, “Rapid Response Process, ”
      May 5, 1994. The Air Force did not have an analysis of how often precision
      landings are needed to support deployments because knowing where or how
      often crises or contingencies will develop is impossible. The Air Mobility




                                         41
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      Command cannot restrict the ability of the National Command Authority to
      respond quickly in a crisis because of a lack of precision landing capability.

      Audit Response. Although the AMC CMNS stated that AMC required an
      initial operational capability of October 30, 1997, neither AMC nor the
      Air Force could provide any additional support for that date. As described in
      Air Force Instruction 63-l 14, the Rapid Response Process was established “to
      accelerate the fielding of critical systems to meet theater-specific wartime needs.
      The Rapid Response Process does not replace normal acquisition procedures;
      but rather speeds up the process of fielding systems to satisfy wartime needs.”
      When used properly, the Rapid Response Process can be a useful administrative
      process for quickly providing critical wartime supplies. The Air Force did not
      comply with provisions of normal acquisition procedures mandated by
      DOD Directive 5000.1 and the Federal Acquisition Regulation. Also, the
      Air Force response stated that the initial operational capability date was based
      on the time needed to develop and install the PLSR on the C-17 aircraft and not
      on a critical wartime operational requirement.

      The AMC CMNS and other documentation that the Air Force provided did not
      identify that the Army AN/TPN-18 Landing Control Central was deployed to
      Bosnia on one C-130 aircraft during the initial stages of Operation Joint
      Endeavor or that the AN/TPN-18 provided precision landing support to
      Army aircraft and AMC cargo aircraft including the first precision landing of a
      C- 17 aircraft in a tactical location. Also, the U.S. Transportation Command
      and the Air Force could not provide documentation that National Command
      Authority mandates cannot be met with existing Military Department precision
      landing capability. Knowledge of the specific operational scenarios that existing
      precision landing capabilities can not meet would have been useful to decision
      makers.

      Air Force Comments. The Air Force disagreed that AMC did not describe the
      specific operational scenario (combat need) in which the PLSR-equipped
      C-17 aircraft is expected to operate. The Air Force stated that the C-17 aircraft
      supports the global air mobility mission and that AMC assumes that the
      C-17 aircraft will be employed to support that mission.

      Audit Response. We agree that precision landing capability is necessary for
      the C-17 aircraft and other aircraft in support of world-wide military operations,
      and we understand that those needs are being addressed under the ongoing
      JPALS Program. That important DOD capability should be fully documented
      and alternatives thoroughly evaluated under the JPALS Program.

      Air Force Comments. The Air Force stated that the Hierarchy of Material
      Alternatives defined in DOD Directive 5000.1 states that “the use or
      modification of systems or equipment that the Department already owns is more




                                          42
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      cost-effective than acquiring new material, ” and that modifying the existing
      PLSR program for use with the already deployed MMLS complies with that
      guidance. .

      Audit Response. The Air Force reference to DOD Directive 5000.1, section 2,
      “Acquiring Quality Products,” subparagraph b, “Hierarchy of Material
      Alternatives, ” is misleading. The referenced subparagraph states, “In response
      to operational requirements, priority consideration shall always be given to the
      most cost-effective solution over the system’s life-cycle. Generally, use or
      modification of systems or equipment that the Department already owns is more
      cost-effective than acquiring new material. ” The Air Force never determined
      the life-cycle costs for the development or installation of the PLSR on the C-17
      or any other aircraft. The developmental nature of the PLSR and the extent of
      deficiencies with the existing MMLS and CMLSA systems should warrant
      documentation and evaluation of all costs before decisions on the continued use
      of MLS technology and for comparison and analysis of alternative solutions.

      Air Force Comments. The Air Force stated that the CMNS direction called for
      installing PLSR avionics units on a minimum of 35 aircraft and that the
      installation was extended to 48 aircraft based on production-line considerations.
      The Air Force stated that the C-17 Requirements and Planning Council
      approved the action which is covered under requirements from the C-17
      Integrated Weapon System Management Program Management Directive,
      March 18, 1996, requirements regarding maintenance of a single aircraft
      configuration.

      Audit Response. We agree that a single aircraft configuration should be
      maintained to the maximum extent possible.

      Air Force Comments. The Air Force did not agree that it did not know all
      program costs for precision landing capabilities before deciding to install
      PLSR avionics units on C-17 aircraft. The Air Force stated that the report is
      misleading when considered in the context of the AMC CMNS. The
      differential GPS budget estimate was for a potential, future requirement and is
      not part of the current program to install MLS and ILS operational capability on
      the C-17. Contract actions have been definitized and proposals received, the
      C-17 program office does not track operation and support costs for new projects
      at the project level, and the life-cycle cost of the C-17 system is updated every
      2 years.

      Audit Response. The report fully considered the AMC CMNS and the
      Air Force actions to implement solutions to the CMNS. We agree with the
      Air Force statement that it did not include the full program cost for
      PLSR capabilities and did not perform life-cycle cost analysis for the
      development and installation of the PLSR on C-17 aircraft. We used estimated
      costs cited in a periodic update on “C-17 Precision Landing System Receiver



                                         43
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      (PLSR) MOD [modification] Status Air Mobility Contingency Precision
      Approach Capability (AMCPAC), ” March 3, 1997, signed by the Program
      Director for the C-17 System Program Office. The Air Force should determine
      full life-cycle program costs for the PLSR. We updated the report to reflect
      current cost information that the Air Force provided after the draft report was
      issued.
      Air Force Comments. The Air Force stated that the draft report estimated
      value of $109.8 million for the additional costs to develop differential
      GPS capability of the PLSR and to install PLSR avionics units on the
      120 C-17 aircraft fleet was inaccurate.

      Audit Response. We based the $109.8 million cost on cost information that the
      Air Force provided. We revised those costs to $105.1 million based on
      information that the Air Force provided after issuance of the draft audit report.
      Those costs do not reflect the estimated life-cycle costs for the development and
      installation of the PLSR for the C-17 aircraft. Further, those costs do not
      reflect the funds spent and still required to correct problems with the existing
      MMLS and CMLSA systems.

      Air Force Comments. The Air Force disagreed with the report statement,
      “The Air Force did not consider the status and operability of the MMLS a
      risk. ” The Air Force stated that it recognized the PLSR development risk
      associated with the ILS and MLS bands.

      Audit Response. The report addresses the risks associated with the
      MMLS ground station, not the risks associated with the MLS band on the
      PLSR avionics unit.

      Air Force Comments. The Air Force disagreed that the JPALS Near-Term,
      Integrated Product Team did not adequately consider the risks associated with
      deployment of MMLS or identify all risk factors affecting the development,
      installation, and use of PLSR on C-17 aircraft. The Air Force stated that
      MMLS deployment capability has been demonstrated, that three people can set
      it up in 1 hour, that operational capability at a deployed location has been
      demonstrated, and that the AMC concept of operations for contingency
      precision approach capability provides theater commanders the option for
      waiving portions of the flight inspection requirements.

      Audit Response. The Air Force comments imply that merely placing the
      MMLS on the ground demonstrates operational deployment capability. The
      Air Force did not provide evidence that it made precision landings using the
      MMLS during an operational deployment or that the MMLS can actually
      provide the “first-in” capability that AMC desired. The Air Force is still
      working to correct problems with CMLSA-equipped C-130 aircraft, which are
      the only Air Force aircraft outfitted to use MLS technology. The Air Force



                                         44
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      Operational Test and Evaluation Center test manager could not confirm that the
      PLSR will be tested against the MMLS in a realistic operational deployment
      scenario. We maintain that the Air Force did not accurately consider all risk
      factors affecting the development, installation, and use of the PLSR on
      C-17 aircraft.
      Air Force Comments. The Air Force disagreed that it did not fully consider
      existing precision landing alternatives to meet the immediate precision landing
      needs of C-17 aircraft. The Air Force stated that the lack of nonmaterial
      solutions to meet the immediate AMC need for precision landing was
      documented in the Joint Precision Approach and Landing Capability Mission
      Need Statement. The Air Force also stated that the Army, the Air Force, and
      the Marine Corps systems do not meet the AMC requirement for a “quick
      response” rapidly deployable precision approach capability as demonstrated in
      Bosnia.

      Audit Response. The Joint Mission Need Statement addresses long-range
      precision landing needs that are being evaluated DOD-wide under the ongoing
      JPALS Program. The Joint Mission Need Statement did not address or
      adequately support the AMC immediate and short-term needs. The Air Force
      response did not address that the Army AN/TPN-18 Landing Control Central
      provided precision landing capability for AMC cargo aircraft during the early
      stages of Operation Joint Endeavor.

      Air Force Comments. The Air Force stated that current Army, Air Force, and
      Marine Corps deployable air traffic control and landing systems can technically
      supply AMC with a precision approach capability. However, the Air Force
      stated that other existing radar systems did not provide airport surveillance
      capability; took too much airlift, personnel, and time to set up; and were old,
      maintenance-intensive, and unreliable. The Air Force stated that AMC required
      its own organic precision landing capability to support initial contingency
      operations and that AMC will be able to deploy both an MMLS and a full
      airport surveillance and precision approach radar system on two C-130 aircraft.

     Audit Response. The Air Force documents did not explain why other
     organizations could not meet the AMC requirements for “first-in” capability,
     and support its need for airport surveillance radar capability. We were also not
     provided documents that show that two C-130 aircraft could deploy an MMLS
     and an airport surveillance and precision approach radar system. The Air
     Force-selected, command-unique solution to meet the AMC CMNS will
     perpetuate existing DOD-wide problems associated with maintaining numerous
     dissimilar radar systems for similar precision landing needs. The Joint Mission
     Need Statement for Precision Approach and Landing Capability, currently being
     addressed under the JPALS Program, states that the maintenance and use of
     dissimilar radar systems by the Services has increased costs and has hindered
     joint military operations. Service-wide requirements for precision landing



                                         45
Appendix G. Air Force Comments on the Draft Audit Report and Audit Response




      capability should be thoroughly defined and cost-performance trade-off analysis
      should be performed before acquiring replacement systems for existing precision
      landing systems. We understand that the reevaluation of the costs and benefits
      of the PLSR and other alternatives against established mission requirements
      under the ongoing JPALS Program will include the performance of trade-off
      analysis.

      Air Force Comments. The Air Force stated that performance tradeoffs were
      considered related to requirements for performance, safety, deployability, and
      schedule for the AMC CMNS. The Air Force stated that solutions rated outside
      AMC requirements were considered to be of no benefit, regardless of cost. The
      Air Force also stated that the TTLS system shows promise and is still being
      considered under the JPALS Program but did not meet the AMC CMNS
      requirements.
      Audit Response. DOD Directive 5000.1 states that fiscal constraint is a reality
      that all participants in the Defense acquisition process must recognize and that
      cost must be viewed as an independent variable. We believe that effective cost
      and trade-off analysis should have examined existing military systems and
      planned developmental systems, including the TTLS .

      Air Force Comment. The Air Force disagreed that the installation of the
      PLSR may inhibit the future insertion of commercial, off-the-shelf GPS. The
      Air Force stated that the military GPS service is not commercially available
      because of security considerations and that the PLSR is a modular design
      providing growth capability. The Air Force stated the Federal Aviation
      Administration is committed to replacing the existing ILS-based systems with
      augmented GPS-based systems and has committed considerable resources to the
      development of GPS technology.

      Audit Response. Based on management comments, we revised the report.




                                         46
Appendix jH. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Superintendent, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
  Air Force Program Executive Officer for Airlift and Trainers
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Combat Command
Commander, Air Mobility Command
  Commanding Officer, Air Education and Training Command




                                          47
Appendix H. Report Distribution




Department of the Air Force (cont’d)
Commander, Air Force Materiel Command
  Commanding Officer, Aeronautical Systems Center
  Commanding Officer, Electronic Systems Center
Commander, Air Force Special Operations Command
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental AITairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
   House Committee on National Security




                                            48
Part III - Management Comments
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
C o m m e n t s

                       ASSISTANT SECRETARY OF DEFENSE
                                 6000 DEFENSE PENTAGON
                                WASHINGTON, DC 20301-6000

                                       Auqust    19,   1997




      MEMORANDUM FOR INSPECTOR GENERAL


      SUBJECT: Comments on Audit Repon on Short-Term Precision Landing Capabilities
               for C- I7 Aircraft (Project No. 7RD-008)

              The C31 Systems Overarching Integrated Product Team (OIPT)) approved the
      strategy for the near-term effort for a mobility auhft contingency prectsion approach
      capability and the delegation to the Air Force PEO for Airlift and Trainers as the
      Milestone Decision Authority. The USD(A&T) concurred. While I am committed to
      success of this near-tctm effort, die Air Force is entrusted to identify the need and pursue
      the acquisition in accordance with the statutes and regulations required for an acquisition
      of this category.

              The Air Force drafi response contests that there are many discrepancies in the
      draft audit report. I recommend that. bcforc thus report is finalized, an attempt be made to
      reconcile the discrepancies with the Air Force.

              Therefore, until the final audit is published, preferably with some of the
      discrepancies reconciled, the C31 Systems OIPT will continue to review the near-term
      effort with the Joint Precision Approach and Landing System (JPALS). If there is a lack
      of appropriate oversight or implementation of acquisition procedures, the OIPT will
      direct the necessary actions.




                                                     50
Air Force Comments

                           DEPARTMENT OF THE AIR FORCE
                                   WASHINGTON DC




     MEMORrV\IDLJM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITII\G
                      OFFlCE OF THE INSPECTOR GENERAL
                      DEPARTMENT OF DEFENSE

     F R O M SAFF’AQ
             1060 Atr Force Pentagon
             Washington DC 20330-1060

     SCBJECT Audit Report on Short-Term Precision Landing Capabilities for C-         17   Aircraft
     (ProJect No 7RD-001%)

            This is in reply to your memorandum requesting the Assrstant Secretary of the Air
     Force (Fmancial hlanagemenr and Comptroller) to provide comments on subject report

             The Air Force does not concur with the recommendation of “limittng the
     acquisitton and installatmn of the PLSR to one C-l 7 test arrcrafi ”

              The Air Force does not concur with the recommendation of Increased testinS as
     suggested under the specific recommendation of”pro\ing the operational capability and
     feastbility of the PLSR to provide preciston landing capabilitk in support of deployments
     through appropriate testing ”

             The An Force concurs with the recommendation of”evaluating the costs and
     benefits of continuing the use of microwave landing technology to probride precision
     landtng capability in support of deployment .’ Based on the fact that the US. Italv. UK.
     Denmark. and Belgtum are planned users of microwave landing technology. it IS important
     for the DOD to stay current on the costs and benefits of micro\vave landing technology
     The Atr Force believes the JPALS program and the G4TOMC2 System Program Offtce
     at the Electronic Systems Center is the right place to stay current on continuing use of
     WS technology The Air Force will ensure the Jomt Precwon Approach and Landing
     System (IPALS) program conducts approprtate cost and benefit analysis

             l.he Air Force also concurs with the recommendation of “evaluating the costs and
     benefits of the PLSR and other alternatives against established mission requirements under
     the ongoing DOD-wide JPALS program ” The cost and benefits of the PLSR will be
     evaluated as part of the JPALS Phase 0 Analysis of 4lternatrws cost trade-offanalysis




                                                   51
Air Force Comments




                  Finally. the Air Force does not concur with the recommendation of having the
         “Asslsrant Secretary ofthe Air Force for Acquisition instruct program and contract
         officials to properly document operational requirements and to plan acquisitions ab
         required .’

                 The rationale for Air Force nonconcurrence with three ofthe recommendations
         discussed above are too numerous to discuss in this memo For that reason. I have
         attached the Air Force’s Response Summary and Detailed Response. which contain the
         complete Air Force response. I request that the Air Force’s response be included in your
         final report

                 Should you have any questions about this memo or its attachments please do nor
         hesitate to contacr me




         Arch
         Air Force DoD/IG Report R~spanse




                                                      52
                                                                                  Air Force Comments




                                            TABLE OF CONTENTS

           DoD/IG Audit Report Response on Short-Term Precision Landing                I               *

           Joint Precision Approach and Landing System (JPALS)
            Near Term Integrated Product team (NT-IPT)                                      2

           JPALS       A     D   M                                                          3

           AMCPAC Decision Briefing to AMUCC                                                4

           AMCPAC Follow-up Briefing to AMUCC                                          5
           AMC/CC Global Reach Ltr to General Ronald R Fogleman. Chief of Staff             6

           C-MNS Message                                                          .7

           JPALUOIPT         Report                                                        8

           AFFI 63-l I4 -   Rapid Response Process                                         .9

           PMD 0020 for C-17 IWSM Program                                              IO

           Information Points of Contact                                               II




* Omitted for length. Copies available upon request.


                                                     53
Air Force Comments




                                 Air Force Response

                                          to

                              DoDlIC Audit Report on
                     Short-Term Precision Landing Capabilities
                                 for C-17 Aircraft
                              (Project No. 7RD-0008)




                                   75 August 1997




                                     Prepared b)

               Air Force Program Executke Offke for Alrlili and Tramers
           Rm 5A266. 1230 Air Force, Pentagon. Washington D.C. 203iO- 1730
                                                                                Air Force Comments




                              Air Force Response
                                       to
   DoD/lG Audit Report on Short-Term Precision Landing Capabilities for C-17
                        Aircraft (Project No. 7RD-0008)




PART I- BACKGROUND

        1. Introduction

        The Audit Report on Short-Term Precision Landing Capabilities for C-l 7 Aircrafi
(Project No. 7RD-0008) misunderstands facts related to the program and offers faulty
conclusions

       2. Methodology

       The DoD/IG draft report response is broken into three parts. background,
response summary and the detailed response.

        The DoDilG report itself focuses on acquisition planning, microwave landing
system technology, initial operational capability date, testing and alternative systems The
Response Summary (RS) and the Detailed Response (DR) follows the same format and
structure as the DoD/IG report

       Air Force review of the DoDllG report was conducted with in-depth analysis by a
team of engineers. program managers, contracting representatives and senior offtcials from
across the Air Force, including Air Force Materiel Command. An Mobility Command. .Air
Force Operational Test and Evaluatton Center. and Au Force Flight Standards Agency




                                              55
Air Force Comments




         PART II - RESPONSE SUMMARY (RS)

                 The RS contains summary analysis of the DoDllG report, response to the DoDilG
         report recommendations. conclusions and executive summary

                1. Summary Analysis of DoD/lG Report

                The following general analysis reviews five key areas of the DoD/lG report These
         areas are particularly important as they form the basis of the report’s recommendations
         This section provides a top-level assessment of the validity of the report assertions.



                        Acquisition Planning

                 The heart of the DoD/IG report on acquisition planning are assertions that the Air
         Force did not follow prescribed DOD acquisition procedures These assertions are not
         true As the rest of this response wrll show. the Air Force, through existing contracts.
         acquisition plans. the AMC Combat Mission Needs Statement (C-MNS) and AFI 63-1 14.
         RaprdR~‘.y~w~ Pmcrw (RRP). followed DOD acquismon procedures m carrying out the
         .Air Mobility Contingency Prectsion Approach Capability (AMCPAC) program

                        Microwave Landing System (MLS) Technology

                 The key assertion in this section revolved around conjecture of Air Force reliance
         on an immature, unneeded and unproven technology These conjectures are false The
         followmg response shows that MLS technology is in use or being planned for employment
         in four European countries and the United States At the same time it is nearly
         operationally capable within the Air Force inventory

                        Initial Operating Capability (IOC) Date

                  This sectton of the report and. in some ways, the entire DoD/IG report hinges on
         the assertion of no documented rationale for the 30 Ott 97 IGC The assertion is false
         Air Force Instruction 63- I 14. Rapid Response Process and 1 O-60 I. Mission Needs and
         Operational Requirements Guidance and Procedures, provide the methods and process for
         utilizing Combat Mission Need Statement and the subsequent accelerated fieldmg of
         critical systems to meet HQ USAF major commands (MAICOM) and warfighting
         commanders in chief (CINC) On 1 1 Dee 96. the Chief of Staff of the Air Force approved
         the AMCKC-validated C-MNS which contained a required IOC. in accordance with the
         Rapid Response Process Suggesting there was no documented rationale for the required
         IOC is erroneous. The assertion ignores an essential basis of Air Force contingency
         response acquisition procedures




                                                       56
                                                                                  Air Force Comments



                                                                                                       Final Report
                                                                                                        Reference




               Testing

         The DoDllG report concludes that abbreviated test planning and testing were
being conducted on the AMCPAC system. This is false. Developmental testing will meet
the purpose and scope of AFI 99-10 I, Developmental Test and Lvaluution, and will
demonstrate full PLSR functionality. Readiness for operational testing will be certified by
the C-17 SPO. AFOTEC will conduct appropriate operational testing. Phase I of
AFOTEC’s testing concludes with a fielding decision. Phase I testing includes 287
approaches, allocated to 110 h&S and I77 ILSNOR approaches. Precision tracking data
and pilot rating data will be collected for all 287 approaches. Additionally, 50 to 100
current C-l 7 approaches will be performed for the purpose of baselining pilot rating. As
this response shows, the DoDlIG report came to an inaccurate conclusion largely due to a
lack of research and communication with those planning and conducting AMCPAC
testing.

               Alternate Systems

        The DoDllG asserts the Air Force failed to adequately consider alternate systems.
However, evaluating alternative systems was a core activity of an Air Force Tiger Team
convened and chartered to address AMC precision approach capability shortfalls. The
Tiger Team conducted the initial evaluation leading to the AMC/CC selection of the
MMLS and PLSR paired with the C-l 7 to perform contingency landing operations. The
evaluation criteria and results were simple and discrete and passed Air Force. OSD and
FAA scrutiny. before obtaining OSD(A&T) concurrence for the AMCPAC program.


       2. Response to Recommendations for Corrective Action (page 16)

I .a. “Limiting the acquisition and installation ofthe PLSR to one C-17 test aircraft.”                Redirected

         Nonconcur. A well planned. event driven schedule is laid out for the AMCPAC
program and arbitrarily limiting acquisition and installation to a single aircraft makes no
sense. The AMCPAC program is based on a validated mission need and is following
prescribed acquisition procedures. PLSR installation on C-17s will not occur until after
the fielding decision, which will be supported by developmental and operational testing.
The results of the Phase 1 lOT&E test will be the basis of the decision to install the PLSR.
Phase I AFOTEC testing includes 287 approaches, allocated to 110 MLS and I77
ILSlVOR approaches. Precision tracking data and pilot rating data will be collected for
all 287 approaches. Additionally, 50 to 100 current C-17 approaches will be performed
for the purpose of baselining pilot rating.

1 .b. “Proving the operational capability and feasibility of the PLSR to provide precision
landing capability in support of deployments through appropriate testing.”                             Revised and
                                                                                                       redirecte4l




                                               57
               Air Force Comments



Final Report
 Reference




                                Nonconcur. Appropriate testing is planned and no corrective action is required.
                        The AMCPAC program is premised on program planning which dictates the PLSR will
                        not be installed on C- 17s until adequate testing has been accomplished. Installation will
                        not occur until after PLSR contractor qualification testing, integration testing conducted
                        by the C- 17 contractor, flight testing conducted by FAA personnel collaborating in an Air
                        Force evaluation. and operational flight testing conducted by AFOTEC

Redirected              I c. “Evaluating the costs and benefits of continuing the use of microwave landing
                        technology to provide precision landing capability in support of deployments.”

                                Concur. Based on fact the USI Italy, UK. Denmark and Belgium are planned users
                        of microwave landing technology, it is important for the DOD to stay current on the costs
                        and benetits of microwave landing technology. The Air Force believes the JPALS
                        program and the GATO/MCZ System Program Office at the Electronic Systems Center is
                        the right place to stay current on continuing use of MLS technology.

                        I .d. “Evaluating the costs and benefits of the PLSR and other alternatives against
Redirected              established mission requirements under the ongoing DOD-wide JPALS program.”

                                 Concur. The cost and benefits of the PLSR will be evaluated as part of the JPALS
                        Phase 0 Analysis of Alternatives cost trade-off analysis. along with other potential materiel
                        alternatives.

                        2. “Assistant Secretary of the Air Force for Acquisition instruct program and contract
Revised                 offkials to properly document operational requirements and to plan acquisitions as
                        required.. .”

                                Nonconcur. Even though periodic reminders from senior acquisition officials can
                        help program officials maintain awareness of acquisition procedures, special instructions
                        are not warranted at this time. Program documentation reflects that AMCPAC
                        requirements were based on a validated mission need from AMCKC and were approved
                        by the Chief of Staff of the Air Force. Additionally, all acquisition planning followed Air
                        Force Instruction 63- 114, KapidHesporse process, acquisition strategies were approved
                        by the JPALS DOD OIPT and was concurred in by USD(A&T).


                               3. Response to Conclusions (page 15)

                        First paragraph:

                        “IOC of October 30. 1997 was unrealistic”

                               Nonconcur.

                               This is not an accurate statement. AMCKC validated a Combat Mission Need
                        Statement (C-MNS), which was approved by the Chief of Staff of the Air Force on




                                                                       58
                                                                                  Air Force Comments



                                                                                                       Final Report
                                                                                                        Reference




 1 I Dee 96. calling for an IOC of 30 Ott 97 The C-MNS was validated and approved in
accordance with the Rapid Response Process (RRP) AFI lo-601 (dated 3 1 May 94).
para 3 3. states the RRP. as described in AFI 63-1 14 (dated 4 May 94). is used to satisfy
deficiencies that arise during combat or crisis operations (e.g. JOINT ENDEAVOR) or
when the MAJCOhlKC believes accelerated peacetime acquisition procedures are
necessary, based on immediacy of need and availability of offset funding Operation
JOTNT ENDEAVOR highlighted a shortfall in which AMC was unable to operate
effectively at Tuzla Airfield. Bosnia for almost two weeks due to a lack of precision
approach capability In actual hostilities. this lack of capability translates into potential
lives lost. CINC’TRANS, fulfilling his responsibility as a supporting CTNC, determined
that AMC required the capability ASAP to support its rapid mobility mission in the event
weather is a limiting factor


       The 3 I Ott 97 date was deemed to be the soonest achievable given technology
and acqutsition realities. The operational need was clearly and unequivocally documented
m the C-MNS




       NOTE The stated C-MNS airlift and personnel resources are for deployment of a
       complete Radar Approach Control (RAPCON) Airlift and personnel resources
       for deployment of a standalone PAR are addressed in responses to the first,
       second, and third paragraphs on page 13 of the DOD IC Audit Report

        Regarding the requirement to include types, srzes. and quantittes. AMC must be
able to provide capability to wartighting CJNCs to move an initial insertion force that
includes all air transportable equipment and personnel Equipment can range from outsize
(M-I. Bradley. Patriot Battery. and helicopter) to palletized and bulk supplies 4s for an
analysts of how often precision landings are needed, it is impossible to know where or
how often crises or contingencies will develop Ah4C cannot restrict the ability of the
National Command Authority to respond quickly in a crisis due to a lack of this capability



“the Air Force abbreviated     the proposed testing of the PLSR on the C-   17”                        Revised


         This is not an accurate statement PLSR testing on the C- 17 is not abbre\.tated
 Developmental testing is being conducted wtthin the scope and intent of AFI 9% IO I
l>et~c/o~~nrr~r/a/ Te.\/ n~~Jhv&ar~~r ( I I\iov 96). and will demonstrate full PLSR



                                              5




                                               59
               Air Force Comments



Final Report
 Reference




                        timctionality. All testing recommended by AFOTEC will be conducted. Phase I of
                        AFOTEC’s testing concludes with a fielding decision, Phase 1 testing includes 287
                        approaches. allocated to I IO h4LS and 177 ILSNOR approaches. Precision tracking data
                        and pilot rating data will be collected for all 287 approaches. Additionally, SO to 100
                        current C- I7 approaches will be performed for the purpose of baselining pilot rating.

                        Second paragraph:

                        “MLS technology for precision landing in support of deployments has not been
                        operationally proven”

                               Nonconcur

                                This is not an accurate statement. MMLS ground segment (the mobile ground
                        transmitter) technology was demonstrated in a tactical scenario during IOT&E and in
                        Tuzla Airfield. Bosnia and Ramstein. Germany. MLS is a proven technology which is
                        supported by ICAO-approved Standards and Recommended Procedures (SARPS) and
                        FAA-approved flight inspection and terminal instrument procedures (TERPS).


                        Third paragraph:

                        “Installation of the PLSR at this time may also inhibit the future insertion of less costly
Deleted
                        commercial, off-the-shelf components, if and when GPS technology is proved effective for
                        precision landing capabilities.”

                               Nonconcur.

                                 This is not an accurate statement. It is inaccurate to say that the installation of
                        PLSR will inhibit insertion of commercially available off-the-shelf GPS in the future. First,
                        the till military GPS service (Precision Positioning Service (PPS) or P/Y-code) is not
                        available to the commercial sector due to the use of crypto-variable keys to provide secure
                        accuracy to authorized users-there are no COTS products that can make full use of P/Y
                        code. Second, the PLSR was designed to be modular and provide growth capability in
                        processing and interfaces. The intent is to make the box adaptable to both software
                        (reloadable over the MIL-STD-I 553 data bus) or hardware upgrades that may be available
                        in the future.

                                The FAA has committed considerable resources and reorganized its operational
                        structure to support development of an augmented GPS precision landing system which
                        may be fielded as early as 1998. The FAA is committed to replace most of the existing
                        ILS based operations with augmented GPS operations. The GPS capability installed in the
                        PLSR is the most advanced in the DOD inventory and is likely more capable than any GPS
                        receiver commercially available. This is exemplified by its embedded Receiver
                        Autonomous Integrity Monitoring @AIM), Wide Area Augmentation System (WAAS)


                                                                      6




                                                                      60
I   ’


                                                                                           Air Force Comments



                                                                                                                Final Report
                                                                                                                 Reference




        compatibility. local area differential GPS functionality. all in view satellite monitoring
         100% spare memory growth and spare processing speed to meet future evolving
        requirements

                  The FAA is committed to GPS technology The FAA. other US agencies
        (including DOD). and other nations are conducting extensive testing of this technology
        While it is true that GPS is not fi.dly developed for all precision landing applications.
        special purpose systems do exist for Special Category 1 (SCAT-I) landings This is the
        type of Local Area Differential GPS ground station envisioned for initial use with the
        PLSR (l-2 years) Finally, the FAA has plans for fielding the Wide Area Augmentanon
        System within the next 2 years. making PLSR potentially interoperable with the civil
        community

        Fourth paragraph

        “The Air Force plan to install PLSR avionics units on up to 120 C-17 aircraft before                    Revised to
        demonstrating the operational capability of the MLS and GPS technology could result in                  $105.1
        the unnecessary expenditure of more than $109 8 million if the proposed capabilities of the             million
        PLSR cannot be effectively used during deployments

                Nonconcur

                The statement is misleading As senior Air Force and DOD offtcials were informed
        prior to issuing direction to proceed, AMCPAC is a moderate risk program As such.
        there are substantial technical. schedule and cost challenges to the program However. as
        previously demonstrated. the AMCPAC program plan does not call for mstallation of
        PLSR units until after a favorable fielding decision has been made .4 fielding decision can
        only be made based on planned. adequate testing

                 C-MNS direction was for a minimum of 3S aircraft which logically was extended
        to 48 aircraft to coincide with the C-l 7 aircraft production line break pomt for the end of
        modification block 9 This action was approved by senior Air Force officers who chaired
        the C- I7 Requirements and Planning Council (R&PC) for the primary reason of
        maintaining a single aircraft configuration In fact, under the 18 Mar 96. C-l 7 lntegrated
        Weapon System Management (IWSM) PMD and C-17 R&PC procedures, the Air Force
        would have needed extraordinary justification to not continue the PLSR configuration in
        aircraft 36 - 48. Due to long-lead material requirements. a Ilndetinitized Contact Action
        (UCA) was issued to maintain possible single aircraft configuration production schedule
        The C- I7 PLSR LJCA will be definitized concurrent with the fielding decision milestone.
        which is a tinction of successful of Phase I testing

                The “$109 8 million” cost figure IS mtsleading ac it includes unapproved growth
                                                                                                                Revised to
        features. outdated cost estimates. and non-AMCPAC activtttes not in the approved
                                                                                                                $105.1
        program
                                                                                                                million




                                                        61
               Air Force Comments



Final Report
 Reference




                        Fifth paragraph

                        “ W C believe that the Air Force should litnit the acquisition and installation of the PI .SR
                        avtonics units to one C- I7 test aircraft”

                                Nonconcur.

                               This statement Ignores the basic origin of the required and directed AMCPAC
                        program. The requirement for AMCPAC is the vaildated and approved C-MNS of I I
                        Dee 96



                                4. Response    to   Executive Summa~

                                        Audit Results (page ii)

                        “As a result. the Air Force may install a precision landing system technology that has not
                        been operationally proven, has initiated procurement without knowing the full economic
Revised to              cost for the program, and may spend more than $ IO9 8 millton on a high-rusk acqutsition
                        strategy to procure and install developmental avionics units on up to 120 C- 17 aircraft
$105.1
                        before adequately testing and proving the full operational capability of the developmental
million
                        avronics unit ”

                                Nonconcur

                                This statement is not accurate. The Air Force will not install and operate the
                        PLSR system until a favorable fielding decision has occurred The fielding decision will be
                        based on a dctailcd acquisition and test program Additionally. the Air Force has
                        determined the acquisition cost of the program Even though the Air Force has embarked
                        on a moderate risk program to meet the challenge ofthe GIG’ C-MNS. C- 17s will not be
                        modified and equipped with PLSR until adequate testing and operational suitabiltty I1ax.e
                        been demonstrated

                                 C-MNS direction was for a minimum of 35 aircraft which logically w:as extended
                        to 48 aircraft to coincide with the C- 17 aircraft production line break point for the end of
                        modification block 9. This action was approved by senior Air Force otlicers who chaired
                        the C-l 7 Requirements and Planning Council (R&PC) for the primary reason of
                        maintaining a single aircraft configuration In fact, under the I8 Mar 96, C-17 Integrated
                        Weapon System Management (IWSM) PMD and C-l 7 R&PC procedures. the An Force
                        would have needed extraordinary justification to not continue the PLSR configuratton in
                        aircraft 36 - 48 Due to long-lead material requirements. a Undefmitized Contract Action
                        (UCA) was issued to maintain possible single aircraft configuratron production schedule
                        The C- I7 PLSR UCA wdl be definitized concurrent with the tieldmg decrsion milestone.
                        which IS a function of successful of Phase 1 testmg




                                                                        8




                                                                         62
                                                                                Air Force Comments



                                                                                                     Final Report
                                                                                                      Reference




               Summary of Recommendations (page ii)

“We recommend that the Deputy Assistant Secretary of Defense (Command. Control.
                                                                                                     Revised and
Communications and Intelligence Acquisition) reevaluate Air Force decisions on short-
term precision landing capability for the C-l 7 aircraR, to include limiting the acquisition
                                                                                                     redirected
and installation of the Precision Landing System Receiver to one test aircraft. proving the
operational capability of and need for the Precision Landing System Receiver through
appropriate testing against established requirements, evaluate the costs and benefits of
continuing the use of microwave landing system technology to provide precision landing
capability in support of deployments; and evaluate the cost and benefits of the Precision
Landing System Receiver and other competing alternatives against established mission
requirements under the ongoing DoD-wide Joint Precision Approach and Landing System
Program. We also recommend that the Assistant Secretary of the Air Force for
Acquisition instruct program and contract officials to comply with policies and procedures
for acquisition planning prescribed by DOD regulation and the Federal Acquisition
Regulation.”




        As this response has summarized and will show in greater detail, the scope of
PLSR acquisition and installation is an event based program containing proper safeguards
for successful program execution. There is some merit in MIS and PLSR cost and benefit
analysis, and the Air Force has plans to conduct such analysis. Therefore, recommending
this analysis is redundant.

“We also recommend that the Assistant Secretary of the Air Force for Acquisition instruct
program and contract officials to comply with policies and procedures for acquisition                Revised
planning prescribed by DOD regulation and the FAR.”




         Even though periodic reminders from senior acquisition officials can help program
officials maintain awareness of acquisition procedures, special instructions are not
warranted at this time. Program documentation reflects that AMCPAC requirements were
based on a validated mission need from AMCKC and were approved by the Chief of Staff
of the Air Force. Additionally, all acquisition plans followed Air Force Instruction 63-
1 14. acquisition strategies were approved by the JPALS DOD OIPT and were concurred
with by USD(A&T).




                                              63
               Air Force Comments



Final Report
 Reference




                         PART III - DETAILED RESPONSE (DR)

                        The DR follows the DoD/IG report, page by page Following the page numbers are
                        report paragraph and sentence locations, which precede the response comments to the
                        DoD/IG report

                        Page 2

Revised                 (I) Second paragraph Change to the third sentence as follows to add reference to Naby
                        shipboard requirement “The joint mission need statement was approved by the Joint
                        Requirements Oversight Council on August 29. 1995 and is a potential acquisition
                        category ID program based on the potential for program application to more than 15.000
                        DOD aircraft, ships. and ground stations ”

                        (2) Third paragraph Change to second sentence to reflect current DOD 5000-series
Revised                 terminology for Phase 0 and Phase I “The Acquisition Decision Memorandum designated
                        the Air Force as lead Military Department and estabhshed Milestone 0 (Phase 0 Concept
                        Exploration) criteria in support of a Defense Acquisition Board Milestone 1 (Program
                        Definition and Risk Reduction) .’

                        (3) Fourth paragraph. last sub-bullet (on page 3) Change to reflect exact wording from
Revised                 the ADM and NT-IPT Report. “Exploitation of Mobile Microwave Landing System.”
                        This is consistent with the two preceding sub-bullets It is also more consistent with Joint
                        Precision Approach and Landing System (JPALS) Program’s Near-Term (NT) IPT
                        tasking which was to “examine any shortfalls or obstacles to rhe full employment of rhe
                        recently fielded MMLS supporting C- 130 tactical airlift ”

                        Page i

                        (5) Second paragraph This paragraph is not accurate HQ AVCKC did nor direct the
                        Near Term IPT to hasten its efforts. He identified an immediate operational deficiency,
                        and requested a solution be developed to correct the deficiency. In order to comply with
                        the requirement, AFPEO/AT convened an AMCPAC Tiger Team (12 Sep 96) to develop
                        a stratcgp and assess potential technologies to meet AMC’s requirement The Tiger Team
                        was not the JPALS Near Term IPT. although many of the members were the same The
                        Tiger Team developed a strategy. suggested alternatlves and out-brIefed the JPALS
                        Overarching IPT (OIPT) on I6 Ott 96 in order to obtain high level review The OIPT
                        approved of the AMCPAC acquisition stratebT As the Tiger Team rccommcndarions
                        were being coordinated, HQ AMUDO staff requested the number of off-the-shell.
                        PAR/ASR systems be raised from 2 to 4 to support training and deployment requirements
                        A decision briefing was provided to HQ AMCKC, who approved the Tlyer Team’s
                        recommended solution set. AMC/CC directed his stafTto prepare a C-MNS. once it was
                        validated. the Rapid Response Process as outlined in AFI 63-114 was initiated




                                                                     IO




                                                                      64
                                                                                Air Force Comments



                                                                                                     Final Report
                                                                                                      Reference




USD(A&T) concurred with the Tiger Team’s recommended solution on 28 Ott 96 and
further concurred with the DoD JPALS OIPT report on I3 Jan 97.

Page 4
                                                                                                     Sentence
(6) First paragraph: This paragraph is not accurate. The potential use ofMLS
technology is understated. Replace last sentence with “US. Italy, UK, Denmark and
                                                                                                     deleted
Belgium plan on implementing MLS.” Additionally, to be more complete, the report
should reflect the Chairman’s Report for the I3 Jun 97 Air Group V Meeting in which
Belgium, Canada, Denmark. Spain, the Netherlands, Turkey. the UK. and the US either
identified the potential need for multi-mode landing system receiver avionics or the
microwave landing system.

         It should be noted in the DOD IG report that the International Civil Aviation
Organization (ICAO), which establishes international policy for navigation/precision
landing, has recommended the use of a multi-mode landing system avionics. Additionally.
the Airlines Electronic Engineering Committee (AEEC) is actively developing
specitications for a multi-mode landing system for both digital and analog based aircraft
which will serve as the standard for commercial air carrier operations.

(7) Second paragraph: This paragraph is incomplete and inaccurate. Below are three
corrections.

Add to beginning of paragraph: “It is critical to note the planned use of a multi-mode
landing system receiver by the civil community. Also, it is important to acknowledge the
                                                                                                     Revised
operational impact of the added FM frequency protection provisions incorporated in the
PLSR design.

Second sentence: Replace with, “the PLSR is being designed to provide precision landing
capability through ILS, MLS. and GPS technology-the concept of a multi-mode landing
receiver (i.e., ILSIMLSIGPS) was a key recommendation from the International Civil
Aviation Organization (ICAO) in 1995 and is consistent with the ongoing AEEC
development of two multi-mode landing receiver specifications.”

Third sentence, insert the following after third sentence: “The PLSR will be compatible
with US and international civil standards for precision landing and is designed to be fully
compliant with FAA/lCAO standards for precision landing via either ILS, MLS, or GPS.
It should be noted that the PLSR contains the only known ILS in the DOD inventory
which is fully compliant to international standards for FM frequency interference. This
will allow equipped aircraft uninterrupted passage in UK controlled airspace by complying
with a 1994 UK CAA Air Worthiness Notice which otherwise restricts aircraft. without
FM frequency protection provisions, from entering controlled UK airspace in 1998 ”

Page 5




                                              65
               Air Force Comments



Final Report
 Reference




Revised                 First paragraph, first sentence: This sentence is not accurate. The Air Force has shown
                        operational use of the existing MMLS ground station. Air Mobility Command is actively
                        working to correct deficiencies noted to date. AMC plans to have the problems solved by
                        year’s end. Additionally, the PLSR will be fully tested before any C- I7 aircraft is
                        retrofitted and made operational. The acquisition procedures followed in this effort were
                        based on the Rapid Response Process outlined in AFI 63-114.

                        Page 6

                        First paragraph: This paragraph is not accurate. FY98-03 Defense Planning Guidance.
                        Section 1 A para 3 (p.6). Roles of U.S. Military Power, states “finally, to meet all of these
                        requirements successfully, U.S. forces must be capable of responding quickly and
                        operating effectively. That is. they must be ready to fight.. ” Operation JOINT
                        ENDEAVOR highlighted a shortfall in which AMC was unable to operate effectively at
                        Tuzla Airtield, Bosnia for almost two weeks due to a lack of precision approach
                        capability. In actual hostilities, this lack of capability translates into potential lives lost.
                        CINCTRANS. fulfilling his responsibility as supporting CINC. determined that AMC
                        required the capability ASAP to support its rapid mobility mission in the event weather is
                        a limiting factor.

                                AFI I O-60 I (dated 3 I May 94). para 3.3, states the Rapid Response Process
                        (RRP) as described in AFT 63-l 14 (dated 4 May 94). is used to satisfy deficiencies that
                        arise during combat or crisis operations (i.e. JOINT ENDEAVOR) or when the
                        MAJCOMKC believes accelerated peacetime acquisition procedures are necessary,
                        based on immediacy of need and availability of offset funding. Although AFI 63-l I4
                        Rapid Response Process criteria states that normally the capability is fielded within 60
                        days. AMCKC recognized, due to its complexity, this modification could not be
                        completed in such a short time. HQ AMC. HQ ESC. AFPEO/AT. and the C-17 SPO
                        agreed that a 12 month schedule was achievable. AMCKC therefore directed the 30 Ott
                        97 date for initial operating capability.

                                 Further, program and contracting officials did follow acquisition management
                        directives. The PLSR acquisition plan clearly substantiates that proper acquisition
                        planning was conducted and that policy directives, contained in DOD Directive SO00 I and
                        Federal Acquisition Regulation Part 7. were satisfied. The inference that FAR 7.102 was
                        not followed is not accurate. The PLSR acquisition plan authorizes the purchase of 2.200
                        PLSR avionics to be procured for the purpose of being installed on both cargo and fighter
                        aircraft. It was based on fbll and open competition following two prior acquisition phases
                        consisting of a fly-off competition among three different contractors and another down-
                        selection of multiple brassboard designs. Additionally, the Hierarchy of Material
                        Alternatives defined in DOD 5000. I states the use or modification of systems or equipment
                        that the Department already owns is more cost-effective than acquiring new material.
                        Modifying the existing PLSR program coupled with the use of the already deployed
                        MMLS complies with the above guidance.




                                                                        12




                                                                         66
                                                                                Air Force Comments



                                                                                                     Final Report
                                                                                                      Reference




         Additionally. HQ AFOTEC has developed an operational test plan, which answers
the following critical operational issues (Cots) for the PLSR:

        I. Is the AN/AR-N- 155 PLSR an effective substitute for the current capabilities of
the ANlARN 147 VIM receiver on the C-17?
        2. Does the ANIARN-I 55 PLSR provide effective precision microwave landing
guidance to contingency airfields using co-located MMLS ground stations (Phase I)?
        3. Does the ANIARN-155 PLSR provide effective precision microwave landing
guidance to other airfields using fixed base or split site mobile MLS ground stations
(Phase II)?
        4. Does the ANIARN-155 PLSR provide effective precision differential global
positioning system landing guidance (Phase Ill)?
        5 Is the ANIARN- 155 PLSR suitable for the C-l 7 mission?

        COls 1.2, and 5 will be answered in Phase 1, which will support the ticlding
decision of the PLSR. COIs 3 and 4 represent additional capabilities and will bc answered
at a future date, if funded. The test plan is being prepared from the C-MNS, RCM and
drafl operational concept. It reflects how AMC operates the C-17, using MCI 1 l-217, c-
I7 0perafiott.v; AFI I I-206, General Flight Rules; and AFI I 1-2 17. Itrssrrnmenr I*lighr
Procdurcs. The test will have realistic scenarios in which line aircrews of various
experience levels will fly precision approaches in the C-l 7. using the PLSR.

         Finally, a new, stand-alone acquisition plan is not required based on the AMC
C-MNS. Existing PLSR and C-17 contracts and other acquisition documentation were
sufficient to satisfy AMC C-MNS requirements, when taken together with the previously
mentioned documents required under RRP. Specifically, it is important to recognize the
existence of the PLSR program before AMCPAC and that all necessary acquisition
authority was granted in 1983 to purchase up to 2.200 systems for the intent of being
installed on cargo/fighter aircraft. Basic C-17 acquisition planning documents wcrc also in
place prior to AMCPAC.

Second paragraph: This paragraph is misleading. The Air Force is correcting MMLS and
CMLSA problems that occurred during Operation JODlT ENDEAVOR. Flight
inspection procedures. TERPS. and frequency allocations are already in place. Additional
personnel have been trained on the system, and as it is used more, their familiarity and
proficiency will improve.

Page 7

First paragraph: This paragraph is not accurate. Until June 94, MLS was a viable joint
FAA/DOD program. The FAA decided to halt development of MLS technology and to
pursue GPS at that time. As a result ofthis decision, the Army and Navy deleted MLS
                                                                                                     Revised
tknds from their budgets. In this time frame. the Air Force also deleted funding for the
Fixed Base MLS and reduced funding for the Military MLS Avionics. However. since the
operational requirement was still valid and production contracts had already been awarded




                                              67
               Air Force Comments



Final Report
Reference




                        for MMLS and CMLSA equipment. the Air Force elected to capitaltzc on the
                        MMLSiCMLSA sunk costs and take advantage of the improved tactical capability
                        provided by MMLS and the CMLSA being installed on the C-130 fleet Note The
                        complete Air Force rationale for continuing with the MMLS. CMLSA. and multi-mode
                        receiver development was provided in a I5 lul 94 OSD/C31 Memorandum, to the
                        Director. Readiness and Operational Support Subj Quick-Reaction Audit Report on the
                        Air Force Microwave landing System (ProJect No 4RD-6001 .Ol)

                        Second paragraph, second sentence. This sentence is not accurate The retrofit
Revised                 modifications to the MMLS were not the result of deficiencies discovered during
                        Operation JOINT ENDEAVOR Instead. they were the result of the Production
                        Reliability and Acceptance Testing, and were not a factor in whether or not the equipment
                        could be deployed There are no outstanding deficiencies which will prevent deployment
                        of the MMLS

                        Second paragraph, last sentence This sentence is not accurate. It is true that there are
Revised                 CMLSA deficiencies which need to be corrected However. formal action to correct all
                        these deficiencies is on-going and is projected to be complete by Dee 97 The Electrontc
                        Systems Center and ,Air Mobility Command (AMC) are aggressively addressing these
                        issues A meeting of all stakeholders occurred in Apr 97 at Little Rock AFB and OPRs
                        have been assigned to all action items and are being tracked monthly at AMC
                        Additionally. the CMLSA receiver only involves the C-l 30 aircraft and does not impact
                        the C-17

                        Third paragraph. This paragraph is not accurate. The EIWEMC problems listed are
                        unique to the C-130 CMLSA and are not relevant to the C-l 7 moditication or MMLS
                        FOT&E has not been completed on the MMLS due to its lack of operational utilization
                        (caused by lack of aircraft with compatible avionics) Follow-on test and evaluation
                        (FOT%E) will be conducted after all CMLSA deficiencies have been corrected; however.
                        FOT&E is not a pacing factor for MMLWMLSA operational use DT&E was
                        conducted by the contractor (Textron) in 1992-3 and OT&E was conducted by AFOTEC
                        and ACC in 1994-S

                                 HQ ACC submitted a FOT&E request to the An Force Combat Air Delivery
                        School (CADS) on 3 Aug 96 CADS determined that FOT&E should not be conducted
                        until the C-130 issues restricting MIS use are corrected and the system as a whole is
                        operationally utilized for a penod of time, and therefore have not prepared a test plan
                        AMC. in conjunction with the C- I30 SPO and HQ ESC. is actively working the C- I30
                        issues and plans IO have the problems solved by 30 Nov 97

                                The referenced EMIIEMC testing applies only to the C-l 30 CMLSA system
                        There are 4 C- I30 airlift defensive systems (ALE-40. AAR-47. ALR-69. and Al .Q- I3 I )
                        that have not been EMb’EMC tested with the CMLSA operatmg. WR-ALCILBRE
                        engineers have verified through engineering analysis that the ALE-40. AAR-47. and the




                                                                     68
                                                                                    Air Force Comments



                                                                                                         Final Report
                                                                                                          Reference




ALR-69 will not affect MLS operation on the C-130. The ALQ-13 1 will be handled via a
procedural change to the C-130 flight operations manual.

         It is important to reiterate that the PLSR will be fully tested before any C- I7
aircraft is retrofitted. ESC is conducting an independent test of the PLSR at the FAA
Tech Center to vet@ “subsystem” operation prior to installing it on the C-17 for flight
test. The Boeing Company will conduct dedicated DT&E (to verify system operation)
and AFOTEC will conduct IOT&E.

Fourth paragraph: This paragraph is not accurate. The comments made by the Combat                        Page 8
Delivery School were based on a CONOPS written by HQ ACC approximately two years                         Revised
ago and do not relate to current information. HQ AMC and HQ AFSOC have been
developing a detailed concept of operations for deployment and use of the h4MLS to
support contingency mobility operations since this effort began. AFSOC has agreed to be
the primary supplier/deployer of MMLS capability for AMC. They expect to finalize the
CONOPS and training syllabus, and have operator checklists in place NLT 3 I Ott 97.
This will give Special Tactics Teams the ability to deploy the MMLS in support of
contingency airlift operations. AMC’s concept of operations is on track to be approved by
Sep 97

Page 8

Second paragraph: This paragraph is not accurate. AFI IO-601 (dated 3 I May 94). para
3.3. states the Rapid Response Process (RR.P) as described in API 63-114 (dated 4 May
94). is used to satisfy deficiencies that arise during combat or crisis operations (e.g.
JOINT ENDEAVOR) or when the MAJCOMKC believes accelerated peacetime
acquisition procedures are necessary, based on immediacy or need aud availability
of offset funding. Operation JOINT ENDEAVOR highlighted a shortfall in which AMC
was unable to operate effectively at Tuzla Airfield, Bosnia for almost two weeks due lo a
lack of precision approach capability. In actual hostilities, this lack of capability translates
into potential lives lost. CINCTRANS, fulfilling his responsibility as a supporting CMC,
determined that AMC required the capability ASAP to support its rapid mobility mission
in the event weather is a limiting factor.

        The 3 1 Ott 97 date was deemed to bc the soonest achievable given technology
and acquisition realities. The operational need was clearly and unequivocally documented
in the C-MNS.

         “As demonsiraled itr Bosnia dttring operation JOINT END.54 VOR, rhe uirlvt (7
         C-I30 loads). pwsonnel(33 personneL’JB-72 hours required to sel ctpjor
         operafiott). attd.flighr ittspedion requiremettlr of the current PAR induced an
         operalionally unacceptable delay itt initiating immediate airltff operations itt
         areus of chronically poor weather. ”




                                                 69
Air Force Comments




                  NOTE The stated C-MNS airlift and personnel resources are for deployment of a
                  complete Radar Approach Control (RAPCON) Airlift and personnel resources
                  for deployment of a standalone PAR are addressed in responses to the first.
                  second, and third paragraphs on page 13 ofthe DOD IG Audit Report

                 Regarding the requirement to include types. sizes. and quantities, AMC must be
         able to provide capability to warfighting ClNCs to move an initial Insertion force that
         includes all air transportable equipment and personnel Equipment can range from outsize
         (M-l. Bradley, Patriot Battery, and helicopter) to palletized and bulk supplies As for an
         analysis of how often precision landings are needed, it is impossible to know where or
         how often crises or contingencies will develop AMC cannot restrict the ability ofthe
         National Command Authority to respond quickly in a crisis due to a lack of this capability

         Third paragraph This sentence is not accurate The C-MNS is a documented user
         requirement In accordance with AFl 63-I 14, RaprdRrspome Prt~rw IRRPJ. “The RRP
         starts when HQ USAF. major commands (MAICOM). and warfighting Commanders In
         Chief (CINC) issue an urgent. time-sensitive Combat Mission Need Statement (C-MNS) ”

              The Air Force intends to &lly test (developmentally and operationally) the planned
         released PSLR capability for MLS Cat 1. co-located and other requirements as listed in the
         C-MNS RCM Phase I section. The Air Force is executing an extensrve developmental
         ground test program The parallel (non-C-1 7) PLSR ESC flight test at the FAA Technical
         Center will demonstrate PLSR specification compliance in flight. to include operations
         with split site mobile and fixed base MLS ground stations The C- I7 weapon system
         phased flight test program consisting of Phase 1 one week - Dedicated Development
         Test (DT). two weeks - combined DT and Operational Test (OT) and three weeks -
         Dedicated OT Phase 1 Operational Testing will verify the minimum capability required to
         operate the C-17 mto austcrc airfields and replace the existrng VOR/lLS/Marker Beacon
         Receiver Phase II will add additional MLS capability that will have been demonstrated by
         ESC Phase 111 will add DGPS capability if funded in the future The phased approach
         was adopted to insure thorough system testing, while meeting the validated AMC comhat
         need

               Because ofthe initial operatronal capability date, the Air Force has adopted a phased
         flight test program to initially provide a tactical landing capability to support operations
         to Category I mimma, with the potential for a second phased designed to provide an
         European civil mteroperability capability to Category II minima. and finally assess the
         likelihood of F.AA civil interoperability by evfaluating the GPS functionality

         Page 9

         Second paragraph. This paragraph is misleading Phase I testing will be complete and
         AFOTEC will provide an interim summary report to support the fielding decision, prior to
         commencmy PLSR mstallation on the C-l 7 fleet




                                                       16




                                                        70
                                                                                Air Force Comments



                                                                                                     Final Report
                                                                                                      Reference




Third paragraph: This paragraph is not accurate. HQ AFOTEC has developed an                          Revised
operational test plan. which answers the following critical operational issues (COIs) for
the PLSR:

        1. Is the AN/ARN-I 55 PLSR an effective substitute for the current capabilities of
the AN/ARN 147 VIM receiver on the C- I7?
        2. Does the AN/ARN-155 PLSR provide effective precision microwave landing
guidance to contingency airfields using co-located MMLS ground stations (Phase I)?
        3. Does the AN/ARN-I 55 PLSR provide effective precision microwave landing
guidance to other airfields using fixed base or split site mobile MLS ground stations
(Phase II)?
        4. Does the ANIARN-155 PLSR provide effective precision differential global
positioning system landing guidance (Phase Ill)?
        5. Is the AN/ARN-155 PLSR suitable for the C-17 mission?

         COls I, 2, and 5 will be answered in Phase 1, which will support the fielding
decision of the PLSR. COls 3 and 4 represent additional capabilities and will be answered
at a t%ture date. if funded. The test plan is being prepared from the C-MNS, RCM and
draft operational concept. It reflects how AMC operates the C-17, using MCI 1 l-217, C’-
I7 Operations: AFI I I-206, General Flight Rules; and AFI 11-2 17, Instrumetll Flight
I’racedrtres. The test will have realistic scenarios in which line aircrews of various
experience levels will fly precision approaches in the C-17, using the PLSR.

         Additionally, per the PMD memo of 28 Jan 97, HQ AFOTEC is to conduct
LOT&E as required. AMCPAC is an ACAT III effort and is not on the OSDIDOTRrE
oversight list. OSD/DOT&E is not required to be involved in the test program. Phase 1
testing will be complete by 29 Sep 1997 and AFOTEC will provide an interim summary
report by 9 Ott 97 to support the fielding decision, prior to commencing installation on
the C- I7 fleet. PLSR installation on the aircraft is scheduled to start 22 Ott 97 and not 7
Ott 97. AFOTEC tests to the user’s requirements and has developed a test plan based on
the needs that AMC has stated in the AMCPAC Requirements Correlation Matrix (RCM).
Those requirements have been broken into phases to facilitate rapid fielding and testing of
the system. AFOTEC is conducting appropriate testing to established levels of confidence
on the requirements. The flight test program has been closely coordinated between all
parties with multiple Test Plan Working Group (TPWG) and weekly test teleconferences
with representatives from the prime C- I7 contractor (MTA), AFFTC, ESC. C- 17 SPO.
AFOTEC, and AMC. Minutes of these meetings were taken, action items were assigned
and tracked to closure. A test responsibility matrix was developed and coordinated with
all agencies involved, including the Air National Guard, which is responsible for set up and
operation/maintenance of the three Mobile Microwave Landing Systems (MMLS) located
at separate test locations. The Operational Templates (33 each) documented in AF
Manual 63- 119. (irtificaliott of Sysletn Readittessfor Dedicated Operational Test atd
Evaluutiott. were coordinated and tailored for the AMCPAC flight test program and used
as a guide to ensure readiness for dedicated IOT&E. Additionally, a draft Joint Reliability
and Maintainability Evaluation Team (JRMET) and Test Data Scoring Board (TDSB)



                                             17




                                              71
               Air Force Comments



Final Report
 Reference




                         charter was established. The mission and membership of the JRMET is defined in AFl
                         99- 102, Opsra/ionaf Ted and Evaluation, as “Assists in collecting, analyzing, and
                         categorizing reliability and maintainability (R&M) data during DT&E and IOT&E. The
                         JRMET is chaired by a member of the SPO and includes representatives from the
                         supporting and operating commands, test organization, the operational test agency. and
                         when appropriate, contractor personnel as technical advisors.” Finally, an Initial
                         Operational Test & Evaluation Plan will guide the operational testing for the AMCPAC.
                         AFOTEC has been involved in the AMCPAC program.

                                 While the final test report may not be completed prior to 22 Ott 97, the program
                         office will have the interim summary report. as permitted by AFI 99- I02 to support the
                         PLSR fielding decision prior to C-17 installation. Phase 1 of AFOTEC’s testing concludes
                         with a fielding decision. During Phase I AFOTEC testing includes 287 approaches.
                         allocated to I IO MLS and 177 ILSNOR approaches. Precision tracking data and pilot
                         rating data will be. collected for all 287 approaches. Additionally, 50 to 100 current C-17
                         approaches will be performed for the purpose of baselining pilot rating.


                         Page 10

                         First paragraph, first sentence: This sentence is not accurate. The C- I7 supports the
                         global air mobility mission and the C-MNS and RCM make the assumption that the C- I7
                         will be employed to support that mission. To realistically test the Ah4CPAC installation,
                         the OT plan incorporates procedures from the MCI I l-217, draft AMCPAC operations
                         concept, and general flight rules to develop realistic scenarios for test.

                         Second paragraph, second sentence: This sentence is misleading. It overstates the
                         implications of MLS fielding on the C-130 fleet as related to the C-17. The CMLSA
                         deficiencies which prevented employment of the CMLSA equipped C-130 aircraft with the
                         MMLS in Tuzla Airfield, Bosnia are being corrected. AtIer all deficiencies are corrected,
                         a CMLSA/MMLS FOTtE will be conducted. Additionally, AFOTEC will conduct an
                         IOT&E that tests to AMC requirements prior to the fielding decision for the PLSR on the
                         c-17.

                         Third paragraph, first and second sentences: The concepts described in these sentences
Revised                  are being carried out under the current AMCPAC program. AFOTEC is conducting
                         IOT&E as directed by the 28 Jan 97 PMD to support a properly validated C-MNS using
                         the AFI 63-l I4 process. Testing will be to the user’s needs as defined in the RCM
                         approved by AMC/XP. Results will be available and reported through an interim
                         summary report prior to the fielding decision.

Revised                  Third sentence: This sentence is not accurate. The AMCPAC C-MNS is a requirements
                         document validated and approved through appropriate Air Force channels in accordance
                         with AFl63-114.




                                                                    72
                                                                                Air Force Comments



                                                                                                     Final Report
                                                                                                      Reference




Fourth paragraph: This paragraph is misleading when considered in context of the C-                  Page 11
MNS. Based on the RRP timelines, adequate consideration of cost was given. When a
comparison is made installing 40 C-17s (production break point) with PLSR between the
current cost estimate (S383M) and the Congressional inputs (S40.7). the estimates are
very close. The Congressional input was required due to a program new start (i.e. not on
the P-3As) using 3010 BP1 1 timding. The 8111 production incorporation cost was not
submitted to Congress, as it used 3010 BP1 0 tinding for C- 17 product improvements,
which did not require Congressional notification. This is an appropriate management
decision given the Air Force’s commitment to maintaining, to the maximum extent
practical, a single C- I7 aircraft configuration. The Differential GPS (DGPS) budgeting
estimate was for a potential, future requirement and is not part of the current program to
install MLSlILS operational capability on the C-17.

        Since the initial cost data collection by the DODIIG, the C-17 integration and
development Undefmitized Contract Action (UCA) has been detinitized; MTA has
submitted a firm proposal for the retrofit and production incorporation with updated
outyear production estimates; and Aircrew Training System has been defined
Additionally, the initial program cost estimate included a value of %2.2SM for PLSR
Operation and Support (O&S) cost which was inadvertently not relayed to the DOD IG.
The C-17 program o&e manages the C-17 as a system and does not track O&S cost of
new projects at the project level. The life cycle cost of the C- I7 system is updated every
two years.

Page 1 I

First paragraph: This paragraph is not accurate. The DOD/IG value of S 109.8 is wrong.
                                                                                                     Revised to
The $40.7 M estimate was for PLSR MLS capability on 40 aircraft (production
modification break point) and is consistent with the AF current estimate of S38.3M for 40
                                                                                                     $105.1
aircraft. The DODlIG includes a %38M budgetary estimate for DGPS and $I 8. IM for
                                                                                                     million
outfitting the remaining fleet which was not part ofthe S40.7M 40 aircraft estimate.

Current Cost Estimate (SM)

                          Current                 Congress             Comment
Integration (1 A/C)       IS.2                                         Note I
Retrofit (39 A/C)         16.8                                         Note 2
Trainer Updates              .7
DT&E/IOT&E                 I .6
Flight Test
Initial Spares             1.0
  Sub Total               38.3                    40.7
Production (80 A/C)       16.7                                         Note 3
 Total                    55.0                                         Note 4

Note   1: integration   Cost


                                             19




                                               73
               Air Force Comments



Final Report
 Reference




                        Note 2: Retrofit Cost 39 A/C

                                       MTA Group A/Installs/F. S.            11.3
                                       ESC (78 PLSRs)                         5.5
                                        Total                                16.8

                        Note 3: Production Cost 80 A/C

                                       MTA Lot 9 (8 A/C & Non-Ret)            2.0
                                       MTA Outyear (72 A/C)                   5.1
                                       ESC (160 PLSRs)                       11.2
                                       ESC PLSR (Non-Recurring)               2.0

                                     1 Total                               1 16.7         I
                        Note 4:

                                         *VIM = Very High Frequency Omni Bearing Range (VOR) Instrumented
                                  Landing System (ILS) Marker (M) Beacon

                                          (VIM credit: PLSR replaces the WM. SPO will not buy VlMs (%3.6M)
                                  for P-49+ for a total of 72 aircraft at a shipset cost of 550.000, assuming more
                                  than 35 are modified.)



Page 11                 Second paragraph, last sentence: This sentence is not accurate. The Air Force recognized
                        the PLSR development risk associated with the ILS and MLS bands. The Air Force
                        exercised prudent management mitigating that risk. The C-17 production incorporation
                        design will accept either the PLSR or the VIM (LRU that PLSR replaces). In the event
                        the PLSR development lags, there would be no impact to the C-17 production line. For
                        the retrofit C- 17s. if the PLSR development lags, the retrofit would be deferred until units
                        are available. Additionally, an operational aircraft (P-12) was made available for
                        dedicated support of the DT&E. combined DT&E/lOT&E, and dedicated IOT&E testing
                        to mitigate overall C-17 test schedule risk.

                        Third paragraph, first and second sentence: These sentences are not accurate. MMLS
Page 12                 deployment capability has been demonstrated. Once at its deployed location, the MMLS
                        can be setup in the collocated configuration by three people in one hour. MMLS


                                                                      20




                                                                        74
                                                                               Air Force Comments




operation at a deployed location has been demonstrated. The limitations which initially
prevented its use in Bosnia (i e. a FAA collocated flight inspection capability and TERPS)
have been resolved. Additionally, the MMJS capability to provide a ground check of the
MMLS signal in space using a portable MLS receiver supports the Theater Commander’s
options for waiving various portions of the flight inspectton requirement as contained in
the Air Mobilitv Command Concept of Operattons for Contingency Precision Approach
Capability This is a feature no other current precision approach and landing system
offers

Page I2

First paragraph: This paragraph is not accurate Acquisition program risk was an
integrated evaluation element of all evaluation criteria considered by the Tiger Team.
Additionally. the AMCPAC program risk assessment and monitoring is integral to ongoing
program execution

Second paragraph This paragraph is not accurate At the time the Tiger Team met,
JPALS IIPT was conducting a review of potential systems to meet the JPAJS
requtrements (in response to JPALS Request For Information) As a result of this review.
the Tiger Team was able to provide an overall assessment. including cost performance and
schedule, of possible alternatives to meet the C-MNS requirement The lack of non-
materral solutions to meet this requirement was already documented in the Joint Precision
Approach and Landing Capability MNS (USAF 002-94)




       The costs associated with this program were outlined. reviewed and approved by
appropriate Air Force and OSD offtcials prior to program approval

Third paragraph. second sentence This sentence is not accurate. Existing Air Force,
Army, and Marine systems will indeed provide PAR capability to precision minimums
However, current systems do not meet AMCs requirement for a “quick response, rapidly
deployable precision approach capability ” The deticrencies associated wnh the current
DOD precision landing systems are documented tn the Joint MNS for Precision Approach
and Landing Capability (USAF 002-94)

       The 1ISAF Au 7bujfic Management Sfrutcgrc f’la~. dated Jul 96 states

        “WI/h rhc exception oj the h4ML.Y. u/l oj the deployable A 7 (‘AIS dercrihcd were
       ,fieldcd hefrwe the I98O.s. llue III Ihew age atid &cd techt,oloa: lhc deployable
        A T(’ eqwpmerrl suites wrll soon hc wruhle 10 support (ilobul Reach utrd 7hcaler
        Ratrle Monugcmcnt (TRM) .force employmetll srratcgcs. 7hc.y,fuurrhcr rcqurrc




                                             75
Air Force Comments




                 Deliberate OPLANS are written for operations into major airfields capable of large
         throughput Part of this requirement is 24 hour operations. necessitating a need for
         precision approach capability to limit effects of adverse weather/night operations AhiC
         requires its aircrews to fly precision approaches to the maximum extent possible during
         night and/or IMC conditions On the other hand. real world, short notice contingency
         operations are not necessarily flown into major airfields Operation JOINT ENDEAVOR
         highlighted a shortfall--aircraft were unable to land at Tuzla Airfield. Bosnia for almost
         two weeks due solely to lack of precision approach capability

         Page 13

         First paragraph- This paragraph is not accurate AMC did adequately consider the use of
         the AN/TPN-19 to meet the C-MNS requirements Current Air Force, Army. and Marine
         Corps deployable ATCALS can technically supply AMC with a precision approach
         capability However. the issues surrounding rapid deployabihty and other organization’s
         abrlity to support AMC’s timeline led to AMCICC’s requirement for an organic precision
         approach capability supporting initial contingency operations start-up The ANiTPN-25
         (precision approach radar only piece of the ANTTPN- 19) does require 2 C- 130’s to
         deploy, however this does not include the prime mover capabihty required to unload from
         aircraft and setup. In addition. it does not supply the airport surveillance capability
         required to perform air traffic sequencing separation to allow increased airlif? throughput
         In the same t&o C-130s. AMC will be able to deploy both the MMLS as well as a full
         AWPAR capability. Airlift assets are valuable commodities and the less required to
         support the air traffic control infrastructure set-up the more that’s available to directly
         support the warfighting CINC

         Second paragraph: This paragraph is not accurate AMCKC tasked his staff to provide
         viable solutions and options for a first-in capability To complete the assessment. a set of
         criteria were developed to compare existing and new systems The core criteria were as
         follows (1) capable of providing CAT I precision guidance, (2) deployable on one C-130
         (3) capable of being set up and operating within six hours hy 2 people

                 According to AMC/SGVM, the TPN-25 (ANITPN-I9 (PAR only)) requires 36
         hours to set up. IO maintenance personnel to operate. and tiould require extensrve
         upgrade to meet the Air Force standard mission ready rate of 98% The USAF Air Traffic
         Management Strategic Plan states “the TPN-25 PAR is frequently unavailable for use ”
         These inadequacies were the primary reasons it was not selected as a viable solution

         Third paragraph This paragraph is not accurate None of the referenced alternate
         systems met C-MNS requirements AMC did consider the use ofthe AJWPN-I9 to meet
         the C-MNS requirements. Although the current Air Force. Army, and Marine Corps



                                                     22




                                                       76
                                                                                Air Force Comments



                                                                                                     Final Report
                                                                                                      Reference
                                                                                                 1




deployable ATCALS can technically supply AMC with a precision approach capability.
the issues surrounding rapid deployability to support initial start-up operations during
contingency operations were seen as insurmountable The ANTTPN-25 (precision
approach radar only piece of the ANTTPN- 19) does require 2 C-l 30’s to deploy. however.
this does not include the prime mover capability required to unload from aircraft and
setup In addition it does not supply the airpon surveillance capability required to perform
air traffic sequencing and separation to allow increased airlift flow. The Art:? TPN- 18
was considered and was found to be a 1960 vintage radar with severe reliablhty problems
Given the history of the TPN-I 8 it was not recommended as a solution The Army
AN/TPN-18 and the Marine Corps AN/TPN-22 provide capabilities comparable to the
ANmPN-19. hut were not considered to be the most viable solutions for the same reasons
that the AN/TPN-I 9 precision approach radar (PAR) was not considered to be the most
viable alternative As documented in the C-MNS. there were several key AMC
contingency requirements. making deployment terms (I2 hours) and transfer ofresources
key aspects of any solution to the C-MNS requirement The Marine MATCALS is a
newer system than other systems discussed above However. according 10 available
Information. it is maintenance Intensive and not recommended for first-in capablhty
Additionally. this and the Army system are still subject to contingency deployability
constraints not applicable to organic AMC assets.

Page 14

First paragraph Change bullet 6 to “WAGE with GPS aircraft receiver capability to
                                                                                                     Revised
process WAGE and perform Receiver Autonomous Integrity Monitoring (ILLUM)/Fault
Detection and Exclusion (FDE) ” Rationale a key element is that for Lafety reasons the
receivers must be upgraded to provide mtegrlty to the pilot Also. change bullet 7 to
“OMAR ground and avionics system” as both are required

Second paragraph This paragraph is not accurate. Performance tradeoffs were
accomplished The four major requirements areas in the Tiger Team Assessment were
Performance. Safety, Deployability, and Schedule The performance requirement was
already the least stringent for precision landing (Category 1) and was therefore not traded
o f f It was not considered appropriate to trade00 Safety as AMC required an equivalent
level of safety as called for by FAA and ICAO standards The Deployability and Schedule
thresholds were varied to determine sensitivity. Doubling the deployment requirement or
adding SO% (6 months) to the schedule requirement produced no “knee in the curve ‘. If
the solution did not fall within AMC requirements. the system was determmed to be of no
benefit over existing systems, regardless of cost

Third paragraph. This paragraph is incomplete The TTLS system provides promise and
IS still hemg studied under the JPALS program. However, it has significant deficiencies in
its ability to meet near term AMC requirements Specifically. the TTLS is deficient (RED)
in the areas of Deployability and Schedule Its System Specification calls for a setup time
of 24 hours which IS 4 times the AMC requirement. From a schedule standpoint. the
TTLS is a developmental system that has challenging hurdles to overcome to meet



                                             27




                                              77
               Air Force Comments



Final Report
 Reference




                        rigorous deployed environment requirements, Analysis and testing of reliability and
                        environmental compliance are ongoing. Engineering schedule estimates add additional
                        development time to those provided directly from the TTLS vendor. Analogous
                        experience by program managers and system engineers with the Mh4LS and other similar
                        systems, shows that design updates are inevitably required atIer development and
                        operational testing. The nature of the updates usually relates to ground based systems
                        deployment capability and operator interface. Estimates of availability were 9-12 months
                        beyond the AMC need date. In addition, the TITS suffers from limited performance
                        capabilities. Specifically, the system can only service one aircraft at a time on tinal
                        approach which would not meet the majority of AMC deployment scenarios The TTLS
                        vendor, ANPC. informally proposed a 12- I8 month development program with attendant
                        R&D cost (approximately S3.5M) to incorporate growth features. ESC plans to
                        recommend an operational evaluation of TTLS to AMC to determine utility and suitability
                        to meet tkture requirements. ESC is also continuing to monitor the TTLS development
                        and test program and review contract documentation as it becomes available.

                               Conclusion (page IS)

                        First paragraph:

                        “IOC of October 30, 1997 was unrealistic”

                               Nonconcur.

                                This is not accurate. AMC/CC validated Combat Mission Need Statement which
                        was approved by the Chief of StatTofthe Air Force on II Dee 96, called for an IOC of 30
                        Ott 97.

Revised                 “the Air Force abbreviated the proposed testing of the PLSR on the C-l 7”

                               Nonconcur.

                               This is not an accurate statement. PLSR testing on the C-17 is not abbreviated.
                        Developmental testing is being conducted in accordance with AFI 99-10 I and will
                        demonstrate full PLSR functionality. All testing recommended by AFOTEC will be
                        conducted.



                        Second paragraph:

                        “MLS technology for precision landing in support of deployments has not been
                        operationally proven”




                                                                    24




                                                                     78
                                                                               Air Force Comments



                                                                                                    Final Report
                                                                                                     Reference




        This is not an accurate statement. MMLS technology in a tactical scenario was
demonstrated during IOT&E and at Tuzla Airfield, Bosnia and Ramstein, Germany.
MLS is a proven technology which is supported by ICAO approved Standards and
Recommended Procedures (SARPS) and FAA approved flight inspection and terminal
instrument procedures (TERPS). Additionally, in the future, deployment of the TPN-I9
and other equivalent radars in conjunction with the MMLS will be coordinated to provide
to provide a more robust and flexible capability.

Third paragraph:

“Installation of the PLSR at this time may also inhibit the future insertion of less costly         Deleted
commercial, off-the-shelf components. if and when GPS technology is proved effective for
precision landing capabilities.”

       Nonconcur

        This is not an accurate statement. The installation of PLSR will not inhibit
insertion of commercially available off-the-shelf GPS. First, the military GPS service
(Precision Positioning Service (PPS) or P/Y-code) is not a commercial industry due to the
use of crypto-variable keys to provide secure accuracy to authorized users-there are no
COTS products in this area. Second, the PLSR was designed to be modular and provide
growth capability in processing and interfaces. The intent is to make the box adaptable to
both software (reloadable over the MIL-STD-I 553 data bus) or hardware upgrades that
may be required in the future.

        The FAA has committed considerable resources and reorganized its operational
structure to support development of an augmented GPS precision landing system which
may be fielded as early as 1998. The FAA is committed to replace most of the existing
ILS based operations with augmented GPS operations. The GPS capability installed in the
PLSR is the most advanced in the DOD inventory and is likely more capable than any GPS
receiver commercially available. This is exemplified by its embedded Receiver
Autonomous Integrity Monitoring (RAIM), Wide Area Augmentation System (WAAS)
compatibility, local area differential GPS functionality, all in view satellite monitoring,
100% spare memory growth and spare processing speed to meet future evolving
requirements.

        The FAA is committed to GPS technology. The FAA other federal agencies
(including DoD). and other nations are conducting extensive testing of this technology.
While it is true that GPS is not Rdly developed for all precision landing applications,
special purpose systems do exist for Special Category I (SCAT-l) landings. This is the
type of Local Area Differential GPS ground station envisioned for initial use with the
PLSR (I -2 years). In addition, the FAA has plans to field the Wide Area Augmentation
System within the next 2 years which the PLSR will be potentially civil interoperable.
These capabilities will be available in the near term.




                                              79
               Air Force Comments



Final Report
 Reference




                        Fourth paragraph:

Revised to              “The Air Force plan to install PLSR avionics units on up to 120 C- 17 aircraft before
$105.1                  demonstrating the operational capability of the MLS and GPS technology could result in
million                 the unnecessary expenditure of more than $109.8 million if the proposed capabilities of the
                        PLSR cannot be effectively used during deployments.”

                                Nonconcur.

                                The statement is misleading. As senior Air Force and DOD officials were informed
                        prior to issuing direction to proceed, AMCPAC is a moderate risk program. As such,
                        there are substantial technical, schedule and cost challenges to the program. However, as
                        previously discussed, the AMCPAC program plan does not call for installation of PLSR
                        units until after a favorable fielding decision has been made; a fielding decision will only be
                        made based on planned, adequate testing. Finally, there is no Air Force documentation
                        that can substantiate the ‘5109.8 million” tigure

Page 16                 Fifth paragraph:

                        “We believe that the Air Force should limit the acquisition and installation of the PLSR
                        avionics units to one C-l 7 test aircraft”

                                Nonconcur.

                                This statement ignores the facts related to the AMCPAC program. The
                        requirements base of AMCPAC is found in the validated and approved C-MNS of I 1 Dee
                        96.



                        Response to Reeommendations for Corrective Action (page 16)

Redirected              la “Limiting the acquisition and installation of the PLSR to one C-17 test aircraft.”

                        Nonconcur. The AMCPAC program is based on a validated mission need and is following
                        prescribed acquisition guidelines. PLSR installation on the C-l 7 fleet will not occur until
                        after the fielding decision, which will be supported by developmental and operational
                        testing. The results of the Phase I IOT&E, which will verify no loss of existing capability
                        and the addition of deployed MMLS capability, will be the basis of the decision to install
                        the PLSR.

Revised and              I .b. “Proving the operational capability and feasibility of the PLSR to provide precision
redirected              landing capability in support of deployments through appropriate testing.”
Page 17
                        Nonconcur. The AMCPAC program is premised on program planning which dictates the
                        PLSR will not be installed on the C-17 fleet until adequate testing has been accomplished



                                                                      26




                                                                        80
                                                                                 Air Force Comments



                                                                                                      Final Report
                                                                                                       Reference




Installation will not occur until after PLSR contractor qualification testing, integration
testing conducted by the C- 17 contractor. flight testing conducted by FAA personnel
collaborating in an Air Force evaluation, and flight testing conducted by AFOTEC have
successfully occurred.

                                                                                                      Redirected
1 .c. “Evaluating the costs and benefits of continuing the use of microwave landing
technology to provided precision landing capability in support of deployments.”
                                                                                                      Page 18

Concur. Based on fact the US, Italy. UK, Denmark and Belgium are planned users of
microwave landing technology, it is important for the DOD to stay current on the costs
and benefits of microwave landing technology. The Air Force believes the JPALS
program and the GATOA4CZ System Program Office at the Electronic Systems Center is
the right place to accomplish this.

1 .d. “Evaluating the costs and benefits of the PLSR and other alternatives against                   Redirected
established mission requirements under the ongoing DOD-wide JPALS program.”                           Page 18
Concur. The cost and benefits of the PLSR will be evaluated as part of the JPALS Phase
0 Analysis of Alternatives cost trade-off analysis along with other potential materiel
alternatives.

2. “Assistant Secretary of the Air Force for Acquisition instruct program and contract
                                                                                                      Revised
officials to properly document operational requirements and to plan acquisitions as
                                                                                                      Page 19
required.. .”

Nonconcur. Even though periodic reminders from senior acquisition officials can help
program officials maintain awareness of acquisition procedures, special instructions are
not warranted at this time. Program documentation reflects that AMCPAC requirements
were based on a validated mission need from AMC/CC and were approved by the Chief of
Staff of the Air Force. Additionally, all acquisition plans followed Air Force Instruction
63-l I4 and were concurred with by USD(A&T).

Page 19                                                                                               Page 23
Third paragraph: This paragraph is not accurate. Operational needs were validated by the
C-MNS in accordance with the RRP.

Fourth paragraph: This paragraph is not accurate. The Air Force’s self-evaluation was
and is adequate. The Air Force continually monitors the AMCPAC program through a
variety of means to assure adequacy of management controls. This directive requires
management controls which provide reasonable assurance programs are operating as
intended and to evaluate for adequacy of the controls. This is being done on the
AMCPAC program.




                                               81
I      .

                   Air Force Comments



    Final Report
     Reference




    Page 29                   Page 24

    Revised                   Appendix C - Precision Landing System Receiver Program History This appendix
    Appendix D                contains an error The PLSR is capable of complete Category II functionality with the
                              capability of Category 111 accuracy

    Page 32                   Page 27

                              First sentence This sentence is not accurate The C-MNS is a valid. documented user
                              requirement Reference AFI 63-I 14


    Page 33                   Page 28

                              ESC prepared two UCAs for AMCPAC The first UCA approval was dated 19 Dee 96
    Revised
                              and used for modification PO0017 which accelerated the development of the system The
                              second one dated 19 Feb 97 supported the procurement of production units under PO00 I 8
                              and PO0021 of the existing contract Both of these documents along with the associated
                              modifications were provided to the DODnG The statements supporting the acquisition
                              actions were based on validated and approved C-MNS in accordance with AFI 63-I I4
                              The PLSR system previously had an approved acquisition plan on tile

                              The AMC C-MNS was validated and supported          The following is documentation of the
                              contractual actions taken by the C-l 7 SPO.

    Revised                          Delivery Order 0018 UCA (Contract F33657-95-D-2026) was detinitized on 25
          3                   Mar 97 for S I6 5. Attachment I An additional S2 9 million of timely but non-AMCPAC
          *                   software modiftcatton is included in this price. Attachments 2 The AMCPAC portion of
                              the $16 5 million is $13 6 million


    Revised                           Moditication PO0046 (Contract F33657-95-C-2027) The DOD/IG value of 53 7
                              million includes both AMCPAC and non-AMCPAC efforts AMCPAC items are CLIN
                              0028 items for a value of $3 2 million The remaining S 5 million. CLIN 0026. is not an
                              AMCPAC item. For contractual convenience. the etforts were grouped contractually on
                              the same contract modttication

                              Additionally. the firm proposal is now in. Attachment 3. and we estimate final prices at or
           *
                              below the firm proposal-

                                             Title                                 NTE             Proposal
                              028AA          AMCPAC Group A Hardware               $2 9M           $2 3M
                              028AB          35 AK Installs (option to WA)         S9.7M           S8 1M
                              028AC          Field Support Sustaining              S3M             S.2M
                              028AD          FY98 Installs 4 A/C (New option)      Est Sl 7        S7M
                                                                                   39 A/C Total   $1 I 3M




                                                                           28




                   * Omitted for length. Copies available upon request.


                                                                            82
                                                                                 Air Force Comments



                                                                                                      Final Report
                                                                                                       Reference




Page 29                                                                                               Page 34
Sixth paragraph, first sentence. This sentence is not accurate The C-MNS is a valid,
documented user requirement Reference AFT 63- I14 The C-MNS was properly staffed
and approvedlvahdated hy the Chief of StaBof the Air Force on I 1 Dee 96

Seventh paragraph. first sentence. This sentence is not accurate The C-MNS is a valid.
documented user requirement Reference AFI 63-1 14 The use of UCAs was necessary
to support the requirement Additionally. any integration work on the C- I7 would be
accomplished by the Boeing Company as sole source They maintain the drawing package
as the aircraft is still in production They are the only qualified vendor to perform avionics
integration efforts on the aircraft The PLSR effort already had an existing contract
vehicle

Page 30                                                                                               Page 35
Ftrst paragraph This paragraph is not accurate As this report has pointed out there 8s no             Revised to
Air Force documentation that suppons a S IO9 8 million program estimate                               $105.1
                                                                                                      million




                                             29




                                               83
Audit Team Members

The report was prepared by the Readiness and Operational Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Robert M. Murrell
John M. Gregor
Len R. Wilkinson
Gary L. Queen
Yoon S. Sim
Michael S. Henry
Nancy C. Cipolla
Noelle G. Blank
